<html>
<title> - THE WAR AGAINST DRUGS AND THUGS: A STATUS REPORT ON PLAN COLOMBIA SUCCESSES AND REMAINING CHALLENGES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   THE WAR AGAINST DRUGS AND THUGS: A STATUS REPORT ON PLAN COLOMBIA 
                   SUCCESSES AND REMAINING CHALLENGES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2004

                               __________

                           Serial No. 108-214

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-408                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2004....................................     1
Statement of:
    Moreno, Luis Alberto, Ambassador to the United States of 
      America, Republic of Colombia; Roger F. Noriega, Assistant 
      Secretary for Western Hemisphere Affairs, U.S. Department 
      of State; Robert B. Charles, Assistant Secretary, 
      International Narcotics and Law Enforcement Affairs, U.S. 
      Department of State; Thomas W. O'Connell, Assistant 
      Secretary of Defense, Special Operations and Low Intensity 
      Conflict; General James T. Hill, U.S. Army Commander, U.S. 
      Southern Command; and Karen P. Tandy, Administrator, Drug 
      Enforcement Administration, U.S. Department of Justice.....    46
    Plotter, Carlos, former political commander, Revolutionary 
      Armed Forces of Colombia (FARC); Marc W. Chernick, 
      professor, Department of Government and School of Foreign 
      Service, Georgetown University; and Adam Isacson, director 
      of programs, Center for International Policy...............   176
    Walters, John P., Director, U.S. Office of National Drug 
      Control Policy.............................................    14
Letters, statements, etc., submitted for the record by:
    Charles, Robert B., Assistant Secretary, International 
      Narcotics and Law Enforcement Affairs, U.S. Department of 
      State, prepared statement of...............................   105
    Chernick, Marc W., professor, Department of Government and 
      School of Foreign Service, Georgetown University, prepared 
      statement of...............................................   185
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Harris, Hon. Katherine, a Representative in Congress from the 
      State of Florida, prepared statement of....................     8
    Hill, General James T., U.S. Army Commander, U.S. Southern 
      Command, prepared statement of.............................   137
    Isacson, Adam, director of programs, Center for International 
      Policy, prepared statement of..............................   192
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................   204
    Moreno, Luis Alberto, Ambassador to the United States of 
      America, Republic of Colombia, prepared statement of.......    82
    Noriega, Roger F., Assistant Secretary for Western Hemisphere 
      Affairs, U.S. Department of State, prepared statement of...    95
    O'Connell, Thomas W., Assistant Secretary of Defense, Special 
      Operations and Low Intensity Conflict, prepared statement 
      of.........................................................   127
    Plotter, Carlos, former political commander, Revolutionary 
      Armed Forces of Colombia (FARC), prepared statement of.....   179
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, information concerning the Colombian 
      conflict...................................................    47
    Tandy, Karen P., Administrator, Drug Enforcement 
      Administration, U.S. Department of Justice, prepared 
      statement of...............................................   158
    Walters, John P., Director, U.S. Office of National Drug 
      Control Policy, prepared statement of......................    17

 
   THE WAR AGAINST DRUGS AND THUGS: A STATUS REPORT ON PLAN COLOMBIA 
                   SUCCESSES AND REMAINING CHALLENGES

                              ----------                              


                        THURSDAY, JUNE 17, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:50 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Souder, 
Duncan, Harris, Cummings, Kucinich, Tierney, Watson, Van 
Hollen, Ruppersberger, Norton, and McCollum.
    Staff present: David Marin, deputy staff director and 
communications director; Keith Ausbrook, chief counsel; Robert 
Borden, counsel and parliamentarian; Rob White, press 
secretary; Drew Crockett, deputy director of communications; 
Susie Schulte, professional staff member; Teresa Austin, chief 
clerk; Brien Beattie, deputy clerk; Corinne Zaccagnini, chief 
information officer; Michael Yeager, minority deputy chief 
counsel; Anna Laitin, minority communications and policy 
assistant; Tony Haywood, minority counsel; Richard Butcher, 
minority professional staff member; Cecelia Morton, minority 
office manager; and Christopher Davis, minority investigator.
    Chairman Tom Davis. Good morning. I want to welcome 
everyone to today's oversight hearing on Plan Colombia, an 
important component of U.S. foreign and counternarcotics 
policy. Today we'll examine the U.S. Government's support and 
contributions to the progress being made in Colombia in 
fighting drug trafficking and international crime, and in 
improving economic and social conditions.
    Since its inception in 1999, Plan Colombia has been an 
integrated strategy to meet the most pressing challenges 
confronting the country today promoting the peace process, 
combating narcoterrorism, reviving the economy and 
strengthening the democratic pillars of society. The combined 
efforts of several of our Government agencies, who are here 
testifying today, are providing assistance to meet these 
challenges and improve the stability and future of Colombia.
    Not only is Colombia one of the oldest democracies in our 
hemisphere, but it is also home to three terrorist groups who 
fund their guerrilla activities with drugs smuggled into the 
United States for American consumption. Colombia is a 
significant source of cocaine and heroin for the U.S. market. 
As many of us are well aware, the drug trade has a terrible and 
destructive impact on Americans through addiction, drug related 
crimes and death. Because drug trafficking and the guerrilla 
insurgency have become intertwined problems, Congress has 
granted the United States expanded authority and increased 
flexibility to fight narcoterrorism and reduce the flow of 
illicit drugs into the United States.
    I led three congressional delegations to Colombia last year 
and can say first-hand that our significant investment, after 
years of effort, is beginning to see returns on the time, money 
and resources spent in Colombia. Together with the strong 
commitment of President Alvaro Uribe and historic levels of 
support from the Colombian people, U.S. involvement is 
beginning to hit narcoterrorists where it hurts.
    Some European left wing politicians and human rights groups 
claim the Uribe administration has failed to honor commitments 
on human rights. They've also criticized new Colombian anti-
terrorism laws passed in December. But I think the view from 
Bogota looks very different. And I think the European left may 
be guilty of clinging to an overly romantic, naive opinion of 
the guerrillas. The mask is off the Lone Ranger. These are not 
idealistic liberators. They're thugs and terrorists, funded by 
the illicit drug trade.
    The fact is, President Uribe continues to enjoy 
unprecedented support from the Colombian people because his no-
nonsense strategy is producing results. He's popular because 
Colombians feel safer. Men, women and children once afraid to 
hit the road to visit family and friends for fear of kidnapping 
or worse are now doing so. A publicly recognized state presence 
now extends to towns and villages that for decades had been 
rebel territory.
    We are seeing tremendous results in illegal crop 
eradication, and Plan Colombia's efforts have produced record 
reductions in coca production and in the destruction of drug 
labs. Net coca production in Colombia dropped from 355,347 
acres in 2002 to 280,071 acres in 2003, a stunning 33 percent 
decline from the peak growing year of 2001. Interdiction 
efforts by the Government of Colombia have increased 
significantly and each week brings news of seizures of cocaine 
and heroin, interdictions that are usually the result of U.S. 
supplied intelligence. Eradication, coupled with increasingly 
successful interdiction efforts, is a key to our war on 
narcoterrorism, reducing profitability and slowly but surely 
leading farmers to abandon coca in favor of other, legitimate 
crops. Ultimately that in turn will mean less cocaine on 
American streets.
    Criminals who have remained at large for years are being 
captured and extradited to the United States for prosecution. 
Colombia extradited 90 suspects to the United States in the 
first 16 months of the Uribe administration, quite an 
accomplishment considering that 5 years ago it offered up just 
one of its citizens to the U.S. justice system. The 
extraditions illustrate the unprecedented cooperation and 
partnership between our two nations, and the fact that public 
opinion on extradition in Colombia has changed, due largely to 
the political will and persistence of President Uribe.
    Last month, Attorney General Ashcroft announced the 
indictment of nine top leaders of Colombia's largest drug 
cartel, an organization responsible for as much as half of all 
the cocaine smuggled in the United States. This cartel has 
exported more than 1.2 million pounds of cocaine to the United 
States through Mexico since 1990, a load worth more than $10 
billion. To put that number in perspective, it's approximately 
the combined annual budgets of the FBI, DEA and the Bureau of 
Prisons.
    Our continued support of Colombia's unified campaign 
against drug trafficking and terrorist activities and their 
effort to obtain democratic security is a wise investment. 
Although U.S. assistance to the Colombian Government has led to 
meaningful sings of success under the strong leadership of 
President Uribe, challenges remain. Complete realization of 
U.S. policy goals requires a concerted Colombian strategy and 
effort sustained by continuous U.S. assistance. Our panels of 
witnesses today will provide an update on the current status of 
U.S.-Colombian programs, progress that has been made in recent 
years and an assessment of remaining challenges in the war 
against narcoterrorism.
    I look forward to our discussion today and I again want to 
welcome our witnesses and their important testimony.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.001
    
    [GRAPHIC] [TIFF OMITTED] T6408.002
    
    Chairman Tom Davis. I will now yield to any Members wishing 
to make opening statements. Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. I want to 
thank you for holding this important oversight hearing, and I 
also want to thank the Chair for the manner in which he 
conducts the work of this committee. It's much appreciated.
    This hearing is important because Plan Colombia is a $3.2 
billion failed foreign operation. The war on drugs has not been 
won, nor is it being won. Drug usage at home has not decreased. 
Aerial eradication efforts in the targeted southern provinces 
have not eliminated coca production as intended; rather, crop 
cultivation has shifted to other regions. In the Department of 
Putumayo, for example, coca production decreased by 82 percent 
1999 and 2002. During that same period, however, coca 
cultivation rose by 163 percent in the Department of Guaviare.
    This is ironic, considering that aerial eradication efforts 
in the Guaviare region in the mid-to-late 1990's shifted 
production to the Putumayo region in the first place. Coca is 
one of the easiest and most profitable crops to grow, and 
simply put, people are going to continue to grow it if it will 
bring them money. For the past 15 years, despite several 
programs aimed at eradicating coca cultivation, crop supply has 
never ceased to meet demand. And this will not change.
    What Plan Colombia has succeeded in, however, is in the 
funding of rightist paramilitaries, groups that have been named 
terrorist organizations by our own State Department for their 
heinous human rights crimes. This has occurred because the 
Colombian military and paramilitary units have a close working 
relationship. According to the Human Rights Watch World Report 
2002, military units have been found to ``promote, work with, 
support, profit from and tolerate paramilitary groups.'' The 
relationship between military and paramilitaries has included 
active coordination during military operations, the sharing of 
intelligence, the sharing of fighters and the sharing of 
resources such as vehicles, bunkers and roadblocks. Active duty 
soldiers have served in paramilitary units, paramilitary 
commanders have lodged on Army bases and Army trucks have been 
used to transport paramilitary fighters. For their cooperation 
and support, military officers have received payments from 
paramilitaries.
    Most atrocious, however, is that these right wing 
paramilitaries, such as the United Self-Defense Forces of 
Colombia, that's AUC, have been routinely assassinating labor 
organizers, making Colombia the most dangerous country in the 
world for unionists. Since the mid-1980's, over 4,000, over 
4,000 trade unionists have been assassinated. According to the 
International Confederation of Free Trade Unions, in 2002 alone 
of the 213 trade unionists killed in the world, 184 were killed 
in Colombia. Of those, 70 percent were public sector workers.
    Why are so many trade unionists being killed? There's a 
disturbing correlation between the assassinations and 
intimidations of public sector unionists by paramilitary groups 
associated with right wing business interests and the rampant 
privatization in Colombia. U.S. multi-national corporations are 
benefiting from the privatization and de-unionization of 
Colombia.
    What a terrible irony it is that taxes paid in the United 
States are being spent to defeat the basic human rights to 
decent wages, job security and the right to organize in 
Colombia under the guise of a war on drugs. We have a big 
problem with the Government of Colombia, and it starts with the 
president. In a speech delivered in September 2003, President 
Uribe described unions and human rights non-government 
organizations as working ``in the service of terrorism.''
    So I think that it's going to be useful to hear a 
discussion on how the use of war on drugs funds for the de-
unionization of Colombia and the assassination of union 
supporters serves the cause of the United States of America. It 
is not authorized by Congress, it is not U.S. policy and it 
should not be tolerated. Thank you.
    Chairman Tom Davis. Thank you very much. Do any other 
Members wish to make opening statements? The gentlelady from 
Florida and then Mr. Souder.
    Ms. Harris. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing today as well as for providing me the 
opportunity first-hand to view the coca eradication going on in 
Colombia. I also want to thank the distinguished panel of 
members that we have today for their testimony. I've had the 
pleasure of working with several of you on improving U.S.-
Colombia relations now for several years. Up to a half million 
Colombians reside in my State of Florida, where they make a 
tremendous contribution to our economic and cultural dynamism.
    In addition, Colombia consistently ranks as one of 
Florida's top 10 trading partners. Under the extraordinary and 
adept leadership of President Uribe, his domestic approval 
ratings have remained above 70 percent. Since August 2000 and 
2002 Colombia has made great strides toward eradicating illicit 
drug production and trafficking, lowering general crime rates 
and reviving the domestic economy. Indeed, the GDP growth this 
year is expected to reach 4 percent, which is the highest in 7 
years. Exports have reached record levels and the return of 
confidence within the private sector ensures that increased 
investment will continue to spur the economy.
    Moreover, the definitive peace agreement with the national 
liberation army terrorist group, the ELN, appears to be drawing 
closer. In this vein, it's our sincere hope that Mexico's offer 
to mediate these talks will expedite the resolution to 
hostilities. Yet we are reminded of the difficult path ahead. 
Just yesterday, 34 campesinos were apparently killed by the 
FARC terrorist organization.
    This should only steel our collective resolve to continue 
to provide Colombia and President Uribe with the support 
necessary to pacify their nation, bringing opportunity and 
prosperity to its 45 million citizens. Furthermore, the 
proposed free trade agreement to be singed among Colombia, the 
United States, Ecuador and Peru should significantly bolster 
the process in this region to a much greater level.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Katherine Harris follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.003
    
    [GRAPHIC] [TIFF OMITTED] T6408.004
    
    [GRAPHIC] [TIFF OMITTED] T6408.005
    
    [GRAPHIC] [TIFF OMITTED] T6408.006
    
    Chairman Tom Davis. I thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman, very much for this 
hearing. I'm on the subcommittee and our chairman has held 
hearings on Colombia and the Colombian approach. I believe it 
merits the full attention of the committee that you are giving 
it today.
    Mr. Chairman, particularly those of us who live in big 
cities often hear the simplistic notion that, you know, go 
after the supply and maybe we can settle this matter. Well, I 
think Colombia shows that going after the supply is not an easy 
matter, it's a very difficult matter, and just how difficult 
this entire approach is. The approach we're using in Colombia 
is essentially a bipartisan approach. It was begun in the last 
administration, I'm not sure there's any other real approach 
available to us.
    I am very concerned that Colombia continues to be the 
leading supplier of cocaine and heroin to the United States. I 
do note with some optimism that there have been some recent 
decreases in those numbers. I also note what our subcommittee 
has also found, that Afghanistan is quickly becoming a 
competitor, a real competitor to Colombia in the provision of 
these drugs in our country, something that is particularly 
worrisome for other reasons.
    The new flexibilities seem to be warranted by conditions on 
the ground. I have been particularly hopeful, because of some 
progress in civilian institution building and the attention 
that the new president had been able to get for that approach, 
and I continue to be optimistic that he will be able to build 
the civilian institutions, the justice institutions and other 
civilian institutions in the country. I am very disturbed, 
however, at reports of human rights abuses. We would hate to 
see one kind of abuse, drug abuse, be replaced by human rights 
abuses in order to pacify the country.
    And I am concerned, today's New York Times reports the most 
serious massacre since President Uribe took office, 34 coca 
farmers killed by FARC. Apparently, they were all farmers who 
were employed by the paramilitary commanders. All of this has 
led to the notion that President Uribe's efforts to in fact 
negotiate with the paramilitaries could bring FARC, could 
escalate FARC violence. I cite this because of how difficult it 
is, not because I have an answer for all of this or because 
there are a dozen things the administration could be doing.
    But I think that the emergence of these human rights 
violations and the continued leading place of Colombia in 
supplying cocaine and heroin will be worrisome because of the 
amount of attention we have placed on this one country and 
people therefore want to see some progress that the money and 
the attention and the military focus has brought.
    I guess we shouldn't even think that there should be an 
exit strategy. We can't find an exit strategy out of places 
that we should find them. I think the way we're going now, 
we're going to be in Colombia for a very long time, and if 
we're not there, even given the fact that we don't see huge 
progress, even the small progress that we are seeing is enough, 
I think, to keep us there for a time to come and to build 
relationships with the new administration there, so that we 
don't go off on some detour, for example, involving bringing 
pacification to the country by violation of human rights.
    Thank you very much again, Mr. Chairman, for this hearing.
    Chairman Tom Davis. I thank you very much.
    I would recognize the subcommittee chairman, Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I want to thank Delegate Norton for her comments, as well 
as the ranking member of our subcommittee, Mr. Cummings, and 
others, for the bipartisan way we've been approaching the 
Colombian question. Because it's very difficult, it isn't 
enough just to lock up kids in Washington, DC. or other places 
around the country, because of their abuse. We have to get to 
the bigger traffickers, the people who are behind the growing 
of this, the distribution of this, coming into our country, not 
just the users. We also have to be aggressive toward the users 
in the United States, because it's our problem, that it's 
caused the problems in Colombia, the market explosion in 
cocaine and heroin is because of domestic consumption.
    But the fact is, the more that comes in, the cheaper the 
price, and the more the purity is. We have to pursue all 
strategies simultaneously: eradication, interdiction, border 
control, the networks to the United States and reducing demand 
and treating those who are abusing. We have had a tremendous 
internal battle since I was elected in 1994, over how we should 
fund the Colombia National Police, then the vetted units in 
Colombia and how we handle difficult human rights questions 
when there are major U.S. dollars involved.
    I believe the progress in Colombia has been tremendous. It 
isn't perfect, but it's been tremendous. The pressures of the 
so-called Leahy Rule have led the military in Colombia to go 
through major reformation, and we hear repeatedly from their 
units that often an attorney will be in the field with them. 
They examine with pictures when there's been a battle to see 
whether there's been abuse. We have had two different groups 
from the right and two from the left who are committing these 
violations. The poor campesinos who are growing it, they get 
killed by one side and killed by the other side.
    The Uribe government has gone in after all of them. It has 
made tremendous progress. The oldest democracy in South 
America, Colombia, has something to buildupon. As I pointed out 
before, and I think it's important for us to understand, we're 
seeing the tremendous difficulty in Iraq to get their police 
force to stand up. We're doing most of their fighting for them.
    In Afghanistan, we have, in my opinion, a near disaster 
right now. Our Government is doing the best it can, but we 
don't control this tremendous explosion of heroin poppy that is 
occurring in Afghanistan. In Colombia, they're doing the 
fighting. We're having a debate over whether we should have a 
few hundred more advisors, not 100,000 people going into their 
country. So while we're at a critical tipping point, as 
Director Walters has said, and watching very closely, can we 
actually get a reduction for all this money and see the price 
rise and the supply go down and the purity drop in the United 
States? It is a very critical period.
    The fact is, Colombia is a tremendous success story. 
Policemen and military people are dying on the ground because 
of our habits. We have a few hundred advisors there, and maybe 
we need a little bit more, but we are rebuilding their 
institutions. We're rebuilding their police forces. We're 
rebuilding their military. We're getting vetted units. They're 
learning more what human rights is, and this is a success story 
when compared to the rest of the world.
    I want to thank each of our witnesses who are here today 
for coming up to the Hill on a regular basis, for giving us the 
Colombia story, and for their work over many years. Each one of 
you have been involved in different ways. It has been a success 
story when those success stories are so rare around the world. 
Not a perfect story, just as Delegate Norton says. Drugs aren't 
going to go away. This isn't something where it's suddenly 
going to dry up and disappear, any more than our battles 
against rape, against spouse abuse, against the other evils of 
the world.
    But we can control it more. We don't always have to stay at 
this level. If we do our job right and if we're organized, we 
can reduce the level of problems on the streets, and then start 
to deal with prevention in the schools and treatment in a more 
manageable form. Because right now, when it's so prevalent and 
so cheap and so common, we can't get control and make our 
prevention and treatment programs work.
    So I thank the chairman for convening the hearing and I 
look forward to the questions and the testimony today.
    Chairman Tom Davis. Thank you very much.
    Any other Members wish to make opening statements?
    Let's move to our panel. We have our first witness, who is 
the Honorable John Walters, the Director of the Office of 
National Drug Control Policy. Thank you very much. Director 
Walters will provide the committee with a report on how we're 
achieving the President's counter-drug objectives by reducing 
the production of cocaine and heroin in Colombia and the Andean 
region. It's our policy that we swear you in before you 
testify, so if you would rise with me.
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much. I think you know 
the rules, the light will turn orange after 4 minutes. Your 
entire statement is in the record. When it's red, 5 minutes are 
up, and then you could move to summary. Questions will be based 
on your entire statement. We appreciate the job you're doing, 
and we welcome you here today, and look forward to your 
testimony. Thank you.

STATEMENT OF JOHN P. WALTERS, DIRECTOR, U.S. OFFICE OF NATIONAL 
                      DRUG CONTROL POLICY

    Mr. Walters. Thank you, Mr. Chairman, and the many members 
of this committee. Some of them are not here now, but have 
worked very hard on this issue, and we appreciate it very much.
    I also appreciate the committee's particularly longstanding 
support for the Andean Counter-Drug Initiative. And I'm pleased 
to report today that the news is very good. For the first time 
in 20 years, thanks to the unprecedented efforts of the Uribe 
administration and support of the U.S. Congress for the Andean 
Counter-Drug Initiative, we are on a path to realize dramatic 
reductions in cocaine production in Colombia and a 
complementary reduction in the world's supply of cocaine.
    My written testimony discusses a number of areas which 
affect the success of our drug control efforts, and I request 
that the full statement be put into the record.
    Chairman Tom Davis. Without objection, so ordered.
    Mr. Walters. My opening remarks today will focus on the 
progress that's been made in Colombia, most appropriate for 
this hearing, the good news of our eradication and interdiction 
efforts against cocaine and heroin. The United States and the 
Government of Colombia have developed a strategy which focuses 
on three items: one, eradicating almost the entire illegal drug 
crop each year, regardless of replacing efforts; two, 
interdicting and arresting drug shipments and the traffickers 
involved; three, pressuring trafficking organizations through 
extradition and other organizational attack initiatives.
    Today, the United Nations released its latest numbers for 
coca cultivation and we have seen more good news, a 15 percent 
decrease in coca cultivation over the last year in the Andean 
region, according to the U.N. numbers. For 2 years in a row, we 
have seen record decreases in coca and poppy cultivation, due 
in part to the unprecedented commitment to aerial eradications 
through the spraying campaign. In 2003, Colombia sprayed about 
127,000 hectares of coca and manually eradicated another 8,000 
hectares.
    At our current pace, coca cultivation should drop to as 
little as 80,000 hectares by the end of this year, compared to 
144,000 in 2002. In 2002, Colombia had as much as 4,900 
hectares of opium poppy under cultivation. U.S. supported 
eradication programs sprayed an excess of 3,300 hectares and in 
2003, Colombia sprayed nearly 3,000 hectares of opium poppy and 
about 1,000 more were eradicated voluntarily in connection with 
alternative development programs.
    Our eradication efforts have led to double digit percentage 
decreases in total cultivation of both coca and poppy. Most 
importantly, the same good results are holding true throughout 
the Andean region. Total coca cultivation for Peru and Bolivia 
declined from an estimated 61,000 hectares in 2002 to 59,600 
hectares at the end of 2003, a combined reduction of 1,400 
hectares, countering any significant concerning regarding the 
so-called balloon effect.
    Thanks to increased Government of Colombia efforts in 2003, 
Colombian anti-drug forces destroyed 83 HCL labs, the 
conversion of coca plant product into what we see as powdered 
cocaine, captured 48 metric tons of cocaine base, 1,500 metric 
tons of solid precursors and 75,000 gallons of liquid precursor 
chemicals. We have seen increased success at sea, where the 
greatest amount of cocaine was interdicted last year ever. We 
have taken advantage of improved intelligence and cooperation 
with the United Kingdom and Colombia to interdict a high 
portion of the boats carrying illicit drugs as they depart 
Colombia, the principal means of transit to the United States.
    We expect to see a substantially disrupted cocaine 
production capacity with coca cultivation reduced to about one 
half its peak level from 2 years ago. In disrupting the market, 
we need to continue our success in eradication, maintain our 
interdiction performance and keep up the pressure we have 
placed on major traffickers. An unprecedented number of 
extraditions from Colombia has helped fan these efforts 
referred to by you, Mr. Chairman. In addition, there have been 
significant reductions in all indicators of human rights abuses 
in 2003. Homicide is down over 20 percent, massacres down 33 
percent, kidnappings down 26 percent, and forced displacement 
of individuals were cut by 49 percent.
    A key indicator of this historic progress is that 
allegations of human rights violations committed by the 
military has dropped from an excess of 40 percent of all 
allegations 7 years ago to less than 2 percent of all 
allegations in 2003. As a result of these advances, Colombia's 
citizens are safer and democracy in Colombia is more secure. 
The good news that we have seen in the Andean region and 
particularly in Colombia is a product of sustained funding by 
this Congress for the Andean Counter-Drug Initiative, the 
strategic use of resources, our commitment and the commitment 
of the Government of Colombia.
    Domestically, we have also seen very good news. We have 
surpassed the President's 2 year goal of a 10 percent reduction 
in drug use among our Nation's youth, an 11 percent actual 
reduction between 2001 and 2003. With the continued support of 
this committee, we fully expect to meet the President's 5 year 
goal of a 25 percent reduction in the number of drug users in 
the United States.
    I commend the House for providing full funding for our 
counter-drug efforts, and not placing burdensome, restrictive 
conditions on those dollars. However, continued full funding in 
accord with the President's fiscal year 2002 request of $731 
million is necessary now, more than at any time in our history, 
to advance this historic success. We have the opportunity to 
make a real change in the world drug market and we need your 
continued commitment and support as we have had in the past.
    I look forward to working together to ensure that our goals 
are met in Colombia and the Andean region and of course, here 
at home. Last, I'd like to ask to be able to provide for the 
record, given the opening statement by Congressman Kucinich, a 
detailed breakdown of eradication province by province to 
correct the record. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Walters follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.022
    
    [GRAPHIC] [TIFF OMITTED] T6408.023
    
    [GRAPHIC] [TIFF OMITTED] T6408.024
    
    [GRAPHIC] [TIFF OMITTED] T6408.025
    
    [GRAPHIC] [TIFF OMITTED] T6408.026
    
    [GRAPHIC] [TIFF OMITTED] T6408.027
    
    [GRAPHIC] [TIFF OMITTED] T6408.028
    
    [GRAPHIC] [TIFF OMITTED] T6408.029
    
    Chairman Tom Davis. Thank you very much.
    Let me start the questioning. I heard Representative 
Kucinich's opening remarks. Is it possible that as we eradicate 
in Colombia, it's moving to other countries?
    Mr. Walters. It is possible, and it is a great concern, and 
in the past this has happened, that cultivation was once much 
greater in Peru and Bolivia. It's been reduced dramatically. 
During that reduction, cultivation moved to Colombia. That's 
why we've tried to make sure that we continue the pressure 
working with the Governments of Peru and Bolivia. Fortunately, 
over the past 2 years, we have been able to sustain that 
reduction and we have not seen the spread.
    And not to belabor the point, but as the New York Times 
reported on June 9, 2004, ``The overall decline in coke in 
Colombia and the rest of the Andes is indisputable, and the 
strategy appears to have controlled the so-called balloon 
effect, the recurring phenomenon that once saw huge fields of 
coca pop up in one region after being stamped out in another.'' 
So we have our own estimates, we have the U.N. estimates, and 
we have the New York Times. They don't usually line up, all 
three, on such a point.
    Chairman Tom Davis. Could you share with me some of the 
links we've seen in the evidence that the administration has 
collected that detail the relationship between drugs and 
financing for terrorist groups in the Andean region?
    Mr. Walters. Yes. Our current estimates, and we're trying 
to refine some of the dollar amounts, are that substantial 
operational resources are provided both for the extreme right 
and extreme left groups, the FARC, the ELN and the so-called 
AUC. The precise amount that they get from drug trafficking is 
hard to identify, but they could not operate at current levels 
without the resources they receive. They also take money, as 
you know, from kidnapping and from some other criminal 
activities.
    But the bulk of that money, there's no question about it, 
has come from drug trafficking. We have various estimates of 
the relative amounts. But both for the violence that they cause 
in Colombia and the violence that we see through armed groups 
in Mexico, those organizations that are most dangerous and most 
violent make their money and remain under arms and remain able 
to put armed, dangerous people in the field because of what 
they make from the U.S. drug consumer.
    Chairman Tom Davis. Are there any other cartels or cabals 
or drug lords operating independently of the three groups 
you've described in Colombia?
    Mr. Walters. Yes, there are. We have identified a number of 
organizational leaders that are facilitators, organizers, 
sometimes they use the armed groups and pay them for 
protection. Sometimes the armed groups in different areas 
provide certain levels of product for final processing and 
distribution. Basically the large scale distribution and 
shipment to the United States is not run by the armed groups, 
although there have been some of them involved in a few cases 
of distribution. But basically, those are run by trafficking 
organizations, both in Colombia and Mexico today, and they use 
both the Central American-Mexican route to move the drugs to 
the United States and the Caribbean.
    Chairman Tom Davis. So let me just understand. What percent 
of the cocaine, let's talk about cocaine for example, and the 
coca crop, is controlled by the paramilitary groups and what 
percent by these other independent operators or cartels? Any 
idea?
    Mr. Walters. I can't give you a precise percentage, because 
in some cases they're mixed.
    Chairman Tom Davis. Sub-contracting and everything else?
    Mr. Walters. Yes. They are involved in out stages and later 
stages, yes. We're trying to get a better handle on that. We 
also believe frankly that some of what we've seen in the large 
number of desertions I referred to in my written testimony of 
the armed group participants are a result in difficulties of 
financing because of the magnitude of the eradication and the 
disruption of the market for cocaine.
    Chairman Tom Davis. I'm just trying to figure out, OK, 
we're going, the Colombian Government with help from us is 
going after some of the paramilitary groups down there now, and 
we wipe those out, there are still others standing that are 
going into the trade, is what you're saying?
    Mr. Walters. Yes. They are working very closely together, 
and how it might transform itself in the future. Again, what 
happened was, the drug cultivation moved to Colombia and these 
armed groups became involved by controlling countryside, 
keeping government forces, the rule of law from that area so 
they could grow and produce cocaine. As the government takes 
control of the country, and I think that's important, we're not 
just eradicating, the Government of Colombia is systematically 
taking back the country, as you know, providing government 
presence and rule of law in all municipalities of the country 
for the first time in more than two decades.
    Chairman Tom Davis. What do you think is the major obstacle 
and challenge that we face in Plan Colombia at this time?
    Mr. Walters. Follow-through. We can and have and do make 
this problem smaller by pushing back. What happens is, we 
frequently don't stay at it. I think that everyone is rightly 
concerned that what are the limits of commitment. This is a 
large dollar amount, we know that. But when you look at the 
investment in terms of the $12.5 billion that we spend on drug 
control at the Federal level, and many times greater amounts 
that we spend in trying to pick up the pieces from the 
consequences of substance abuse, this is a cost-effective 
investment.
    It obviously only is cost-effective if it makes a 
difference. I think that's what the historic opportunity is 
that the commitment and leadership of Colombia, where most of 
the effort is being applied, that the resources that we are 
supplying to support them there and in the other parts of the 
Andean region are making a difference and systematically 
shrinking in historic allotments the amount of cocaine coming 
into the country.
    Chairman Tom Davis. OK. Thank you very much.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Walters, am I correct in understanding that $93 million 
in funding has been provided this year to protect the 
Colombian, to help the Colombian army protect the Cano Limon 
oil pipeline?
    Mr. Walters. Yes.
    Mr. Tierney. Can you explain to me how that expenditure is 
justified as part of a program whose primary priority mission 
is narcotics control?
    Mr. Walters. Yes, we tried to work carefully with Congress 
in the original request over a year ago for these funds. It's 
designed to be a component to our effort to prevent terror 
organizations from destroying the institutions and economic 
opportunities in Colombia. The oil pipeline was systematically 
attacked, as you probably know, by the ELN and the FARC and a 
significant portion of both gross domestic product of the 
foreign earnings of Colombia, as well as a significant amount 
of the energy, some of this energy goes to the United States. 
What this allowed Colombia to do when protecting the pipeline 
is to maintain those earnings at a time when they are trying to 
grow the economy and for constructive ways.
    Mr. Tierney. Explain for us, if you will, exactly how the 
protection is being provided. Who is providing it and in what 
manner?
    Mr. Walters. Off the top of my head, I may not know all the 
details. We're essentially providing airlift and helicopters, 
and we're providing training to Colombian military personnel to 
be able to protect the pipeline at this point.
    Mr. Tierney. And this is a private company's pipeline, am I 
correct?
    Mr. Walters. Yes, it is.
    Mr. Tierney. And what financial commitment are they putting 
into this?
    Mr. Walters. I don't know what the company is putting into 
the program. In the past, we've worked on the basis of the 
concerns of the Colombia Government here, obviously.
    Mr. Tierney. I'm concerned with that. It seems to me we're 
moving well beyond our, you know, Plan Colombia is the business 
of going after drugs and now expanding over to a pipeline, 
getting more involved, putting more money in there. That 
bothers me in terms of our exit strategy and our involvement 
growing on that.
    Mr. Walters. If I may, if we didn't consult properly with 
your office, I apologize. But we were very careful when this 
proposal was initially made to make clear what it was 
specifically and to include it in the appropriations process. I 
want to make clear we did not intend to say we have a whole 
bunch of money over here and we're going to slide this in on 
the side. This was up front, because we knew there could be----
    Mr. Tierney. I don't mean to imply that you did. I just 
want to address it as a policy question. I think we should 
consider whether this is wise policy and whether there is the 
kind of connection that should exist there, and whether or not 
we're getting into an expansion here that might not otherwise 
be somewhere we want to go or should go.
    But changing the subject for a second, there was a recent 
New York Times article, June 9th of this year, last week in 
fact, and it basically was trying to put the 2003 coca 
eradication estimates into some sort of historical perspective. 
What they essentially said in the article was that although 
there has been a reduction this year, it gets us back to where 
we really were back in the 1990's, so that we're pretty much 
back to where we started.
    Are you comfortable now or are you confident that this 
downward trend in cultivation is going to be sustained with the 
resources that you have?
    Mr. Walters. Yes, if we follow through. What's happened is 
the cultivation grew after a decline, as a result of the 
decline in cultivation in Peru basically some in Bolivia, and 
the shift was to Colombia. We did have a balloon problem. What 
we've done is held the line in those other two countries and it 
looks like as Colombia eradicates at over 100,000 hectares a 
year, the ability to replant and reconstitute is broken and we 
begin to have systematic declines. That's what's happened.
    Mr. Tierney. But there was part of that same article that 
talked about it being a race, it was a quote of one of the 
individuals, I think somebody from the State Department was 
saying that it's a race. We eradicate, they build somewhere 
else, we eradicate, they build somewhere else and we just try 
to get ahead of them. When it is that you think we'll get ahead 
of them to the degree that we can start to see some effect on 
the price and purity? I understand they're now currently as 
high as they've ever been.
    Mr. Walters. We believe, the latest intelligence reports 
that we have just completed, that project and look at flow, we 
believe we will see a change in availability into the United 
States, on the streets of the United States in the next 12 
months as a result of what happens here. It takes some time 
between the planting and the processing and the shipping and 
the dealing. We believe that will probably first appear in 
reductions in purity, because most of the market for this 
product, as you know, is dependent individuals. If you raise 
the price, they go into crisis.
    Mr. Tierney. So a year from now?
    Mr. Walters. Some time in the next 12 months. I can't tell 
you precisely, but I'm not saying it's going to be at the 12th 
month, I can't tell you it's going to be next month.
    Mr. Tierney. Let me sneak in one more question, if I can, 
and that is on the fragmentation issue. What people are saying 
is instead of getting the balloon effect now, where we might 
see the crops moving over to Bolivia or elsewhere that in fact 
they're moving into some of the national parks and some of the 
other more difficult spots where you might not think, that the 
strains have become more resistant, and that's where it's going 
and it's going to be difficult for us to eradicate there. What 
do you find with regard to that issue?
    Mr. Walters. There has been some increased growth in 
national park areas, and there's been a debate, as you probably 
know, about aerial spraying in the parks. We have I believe 
worked out an agreement with the Congress where the Government 
of Colombia, and we will certify spraying in these park areas 
as only a last resort. They are doing some manual eradication 
in those areas as well.
    But obviously, we should not create safe havens. And we 
should also recognize, as I indicated at some length in my 
testimony, the environmental damage that is devastating is done 
by coca growth. It is what has stripped Colombia of an 
estimated million hectares of rain forest. In addition to the 
stripping of that rain forest and the delicate soil in the 
moving of this, the pouring of hundreds of thousands of gallons 
of toxic chemicals into the delicate ecosystem as a result of 
processing through petrochemicals, acids and others.
    We believe, I know people are concerned about the 
environment, especially in this area where we're concerned also 
about biodiversity. But the biggest damage to the environment 
is to allow the coca business to continue. It has been the 
destroyer of the land and the polluting of the watersheds here 
of the Amazon. What's happening is, those can be restored, but 
we have to again stay at it, we have to not let patches of 
protection be created as we begin to squeeze this down.
    But the fact is, the real issue here is, President Uribe 
has said he is going to eradicate every hectare of coca and 
poppy in Colombia, and he has aggressively pursued that course.
    Mr. Tierney. So is it your position that there is more 
environmental damage being done from the cocaine growing itself 
as opposed to the eradication efforts?
    Mr. Walters. I believe if you look at this carefully, there 
is no comparison. What we're using for eradication is the same 
chemical that you can buy in a hardware store and many 
Americans use. It is used more widely in Colombia in 
agriculture settings. It is used massively in the United States 
in agricultural settings. It breaks down into harmless 
components in 3 days after use. The chemicals, the 
insecticides, the others that are being used, sulfuric acid, 
gasoline, kerosene and others that are being used by the 
thousand and thousand gallon lots in processing and in 
cultivation, there is no question, anybody that looks at this 
systematically, I know it sounds, because people say, well, 
isn't spraying always environmentally somehow damaging because 
you're killing something.
    But this is a business that lives by killing triple canopy 
rain forest and dumping toxic chemicals into the Amazon 
watershed. When we stop that, when we reduce the cultivation, 
we save that pollution and give the forest a chance to regrow.
    Mr. Tierney. Thank you.
    Chairman Tom Davis. Thank you very much.
    The gentleman from Tennessee.
    Mr. Duncan. Thank you, Mr. Chairman. I didn't know you were 
going to come to me next. I do have a question. I went down to 
Colombia 4\1/2\ years ago with Chairman Spence on an Armed 
Service Committee trip. And I hate to be the skunk at the 
garden party, but we heard almost the exact same report that 
you've just given. It's nothing against you, but we heard all 
these wonderful statistics then. I don't remember all the exact 
statistics.
    But it seems to me that the Colombia Government is on a 
permanent dole here. What I'm wondering about, 4\1/2\ years 
from now, are we going to have somebody else in your same 
position come here and give us all these same statistics again, 
but we're still going to be paying $4 or $5 billion a year and 
this problem is just going to go on forever? I mean, it's 
amazing how similar your statements are. I'm not criticizing 
you, because you're just giving us statistics that I guess you 
believe are reliable.
    But we had the top three people from the Colombian 
Government that were in charge of the eradication program at 
that time, plus several of the U.S. military people, and they 
told us of the great progress they had made, and had 
percentages just like what you have given us, and that was 4\1/
2\ years ago.
    Mr. Walters. If I may----
    Mr. Duncan. And I'm sitting here, and it just makes me have 
to be skeptical about what you're saying. If you continue to 
make the progress that you're making, then this problem should 
be wiped out in 4 or 5 years. But I just have a strong feeling 
that's not going to happen. So how do you explain that?
    Mr. Walters. Congressman, I do believe that cynicism about 
the drug problem generally, on both supply and demand, is our 
greatest enemy. That cynicism unfortunately has been earned in 
some cases. If people told you in Colombia 4 or 5 years ago 
that there were the kinds of reductions we're seeing today, 
they lied. It's that simple. We have numbers. The U.N. has 
numbers. The numbers did not show that 4 years ago or 4\1/2\ 
years ago.
    But can we tell you that we have perfect knowledge here? 
No. But we can tell you that from multiple sources, we have the 
same information. There is a significant and measurable and 
massive reduction, a historic reduction in the production of 
cocaine in the world generally led by Colombia where over 70 
percent of it is today grown.
    Can we guarantee you or assure you that we're going to get 
to where you and I and everybody else wants to be? That is that 
we systematically reduce the drug problem. And I think the 
answer to that is, we can't guarantee it, because we've had a 
history of making progress, real progress. The drug problem 
today is, the number of users in the United States, I think 
it's important to point out, is half what they were at the peak 
in 1979 that we measured.
    But it's still too high. It went to a low point in 1992, 
and teen drug use doubled between 1992 and the mid-1990's. When 
we forget about it, when we stop acting, when we don't do 
effective things, we get a bigger problem. But that's true of 
every problem.
    Mr. Duncan. I'll tell you, I think that the Colombian 
Government is going to do everything they possibly can to make 
sure that they continue getting these billions and billions of 
dollars each year. And they're going to tell us that they've 
eradicated it a lot of places in Colombia, but they'll tell us 
that they've increased it someplace else or something.
    I hope I'm wrong. I hope they get it wiped out in 4 or 5 
years. And if these percentages that you're telling us today 
hold up, then it should be pretty well eliminated in 4 or 5 
years.
    Mr. Walters. I think it's important for us to be clear so 
we don't generate cynicism ourselves. Our estimate has been, 
and it's not precise, that the relative ability to reconstitute 
and replant following spray, again, it's important to lay some 
groundwork here. The coca is a bush, as you probably saw when 
you were down there. It takes an estimate, somewhere from 
between 6 months and 18 months for it to regrow to full 
productive capacity. So when you eradicate it, it has to be 
replanted, it has to be allowed to grow to be productive.
    They can, with the magnitude of workers they have in the 
field now, we estimate reconstituted somewhere around 90,000, 
96,000 hectares a year. That's why I think it's very important 
that we spray at the plus 100,000 hectare level as the 
Colombians have done the last several years and begin to 
collapse that. A some of those workers move out of this 
business, the ability to reconstitute, we anticipate, will go 
down. But----
    Mr. Duncan. What you're saying, though, and I can tell you, 
I spent 7\1/2\ years as a criminal court judge, trying felony 
criminal cases before I came here. And I'll tell you, I hate 
drugs. I'm scared to death of them. I tell all the kids that. 
I've seen horrible things. Almost every case that we handled 
was involved with drugs in some way.
    But what you just said a few minutes ago, you said Colombia 
in spite of all the billions and billions and billions that 
we've poured down there over the last several years, that 
Colombia is still producing 70 percent of the world's cocaine, 
is that what you just said?
    Mr. Walters. Yes. Seventy percent of a pie that's one-third 
smaller, and a pie that will be 50 percent smaller, we 
estimate, at the end of this year. So yes, that's why there 
isn't a balloon effect. If it was producing a smaller 
percentage, it would indicate that the movement of growth had 
gone to other countries.
    So we have so far contained and shrunk that pie. We 
estimate that will produce reduced availability in the United 
States, as I said, within the next 12 months.
    Mr. Duncan. Well, I'll tell you this, I hope in 5 years' 
time you can come back or somebody can come back and tell us 
it's all been wiped out, we don't have to keep sending all 
these billions down there.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    The gentlelady from Minnesota, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Sir, if I understand your testimony, and some information 
that I have, it's correct that the coca farmers are growing in 
smaller plots in places like State parks, correct?
    Mr. Walters. There are some. It's a small portion of the 
overall growth, but there is some movement to State parks.
    Ms. McCollum. Would you agree also with some information 
that I've read that the plants that the farmers are growing now 
actually produce more leaves per plant?
    Mr. Walters. We have adjusted our estimate, not so much in 
leaf, but of the so-called alkaloid content of the cocaine 
substance that's extracted from the leaf. It's not necessarily 
more leaves, there have been adjustments up and down based on 
field tests in Colombia, so we get reliable estimates of what 
is being produced. But there has not been in the last couple of 
years----
    Ms. McCollum. I think you answered my question. So you're 
saying that some of the plants can actually produce more?
    Mr. Walters. Yes, there are different varieties of coca----
    Ms. McCollum. Thank you.
    Mr. Walters [continuing]. But there has not been----
    Ms. McCollum. Thank you.
    Mr. Walters. For the record, please, if I can answer the 
question----
    Ms. McCollum. I only have a few minutes.
    Mr. Walters. I'd like to answer the question, Mr. Chairman.
    Chairman Tom Davis. It's her time.
    Ms. McCollum. Thank you. So you're saying that the amount--
--
    [Power outage occurred 3:40: p.m. to 3:45 p.m.]
    [Note.--A copy of the transcript held during the power 
outage follows:]

[GRAPHIC] [TIFF OMITTED] T6408.155

[GRAPHIC] [TIFF OMITTED] T6408.156

[GRAPHIC] [TIFF OMITTED] T6408.157

[GRAPHIC] [TIFF OMITTED] T6408.158

[GRAPHIC] [TIFF OMITTED] T6408.159

[GRAPHIC] [TIFF OMITTED] T6408.160

    Mr. Souder. Part of this money we put in, the last time I 
was down there and talked with Occidental and other companies 
there, felt that the number of attacks were going down, They 
have minor protection, but they're like Pinkerton forces 
against armed forces.
    But they can now hopefully start to explore this, because 
it's right near Venezuela, one of the richest oil basins in the 
world. If they can make their economy work, they can afford to 
pay their own military, and they can afford to buy their own 
Blackhawks. But if their economy doesn't work, their whole 
country will come crashing down and then, because of our drug 
problem, we have to go in and do it.
    I have two questions. One is, we also, in addition to the 
coca problem, have a heroin problem, about to be dwarfed by 
Afghanistan, but nevertheless a heroin problem out of--I 
couldn't resist that--out of Colombia. It's high in the 
mountains, it's hard to get to. A recent FARC defector said 
that molasses is being put on the heroin and it's making it 
hard to aerially eradicate. This is one of the constant debates 
we've had, because in Bolivia, hand eradication worked very 
well.
    You mentioned the national parks problem, which by the way 
is happening. We have the first coca in our parks in 
California. That is a challenge, even though it's the same 
thing we spray crops in our farmers' fields and in the farmers' 
fields elsewhere about aerial spraying. Have you seen that 
problem of molasses coating the heroin? Does that restrict air 
spraying, and do you see us moving more to hand eradication in 
those places if it becomes a problem?
    Mr. Walters. I haven't heard about the molasses, but there 
are periodically accounts of ways of circumventing the spray, 
putting plastic bags over the plants, both poppy and the coca. 
The problem with almost all of these is they also inhibit the 
plant growth over any period of time. They're also labor 
intensive and they make it more difficult. None of them have 
been used, to the best of our knowledge, on a significant 
enough scale to undermine the eradication effort.
    It is true, as you heard, we are looking at over 100,000 
hectares of coca. We're looking at less than 5,000 hectares of 
poppy, and that's really a basis of figuring two crops on each 
plot. So that is less than 2,500 hectares. It's a much smaller 
problem, much smaller plots, as you know.
    What we are doing, what the Colombians are doing, is mixing 
both spray with manual eradication, but that's not because of 
measures they're taking to prevent the spray, it's because some 
of these areas are very difficult to get to by aircraft. They 
are high in the mountains and sometimes it's hard to get an 
intelligence overhead read from an aircraft on where they are. 
Sometimes it's hard to get spray into the side of a mountain 
where a field may be because of the geography. So in that case, 
the Colombians are trying to move manual eradicators in.
    In addition, we are trying to go after this problem with 
better intelligence. We're spraying everything we find. We're 
trying to kill one way or the other every plot of poppy that 
they can find. We are aware that because it's smaller and more 
dispersed there is a problem of finding it, and the DEA has put 
in more people. There is a program now of paying people for 
information about lots of poppy, as well as organizations that 
are involved in it. So we've tried to go after the poppy 
problem, which you know we do take seriously, both in Colombia, 
in transit and in the movement inside the United States from 
its arrival in small amounts, frequently by aircraft, 
passengers on aircraft or in their baggage or on their person.
    Mr. Souder. Part of our problem here is that almost all 
Afghan heroin is going to Europe and Europe hasn't been as 
great a help as they should be in Afghanistan. In Colombia, a 
high percentage is going to Europe. Even as we try to control 
our demand, our Colombia problem stays there because so much is 
going to Europe. Are you pleased with their help?
    Mr. Walters. We have consistently asked the Europeans to do 
more. The British have been steadfast allies in this for more 
than a decade. We have had sporadic help from some other 
nations. But it's been small, especially as you point out, 
considering what they're suffering at this. When President 
Uribe went to Europe recently, there was, I believe, completely 
unjustified criticism of him by people whose nations are dearly 
suffering and should be thanking him for the progress and the 
possibilities he's allowed in the future.
    I don't know of another nation in the world that has had as 
much progress as rapidly on human rights and safety of its 
citizens as Colombia has over the last several years since he's 
been in office. And instead, there are groups that are living 
in the past in Europe and some, frankly, I think in other 
places, that think that's not going on. They have to catch up 
with modern times. President Uribe's popularity in Colombia is 
based on the fact he's brought economic growth, safety and 
security. And that continues to be the case.
    The military's popularity in Colombia is based on the fact 
they've stopped being the thugs that they were a decade ago, 
and through our help, largely through the leadership of 
Colombian officials, they've become more professional. They 
remain, we have to remain vigilant, we have to hold the 
standards, but they understand and we understand that the 
progress here requires that not to be a country that's a war 
zone, and not to be a country that's based on narco-dollars 
that will make it a war zone. The progress there has been 
historic.
    Mr. Souder. Thank you.
    Chairman Tom Davis. Thank you. The gentlelady from 
California.
    Ms. Watson. Thank you, Mr. Chairman.
    I'm listening to the witness talk about the progress that's 
being made with Colombia, Plan Colombia, and I must commend the 
work that has been done that has gone into that. But the 
thought occurs to me when we talk about narcoterrorism, what 
are we doing on this end? It's the consumption of their product 
that creates the problems, and we have them listed as 
addiction, drug related crimes, deaths and a destabilizing of 
our societal core.
    I am told that in countries such as Colombia, Afghanistan 
that the core of their economy is the growing of these plants. 
My question is, and you might not be able to answer but you 
might help us to think about it, what are we doing on this end, 
so the demand won't be as large as it is where billions of 
dollars return back to someone's pocket or to the country? 
Conspicuous consumption, sub rosa consumption or whatever, the 
consumption is here.
    Mr. Walters. Absolutely, and that is, I believe, one of the 
most important questions we can ask about this. It is why we 
have tried to emphasize in our national effort, is we have to 
have balance. The President has said, when he's met with us 
privately and he has said to foreign leaders, we're not asking 
other countries to do things that we should do in our own 
borders. That's why we've asked for a reorienting of the drug 
budget, as well as a strategy to establish that balance.
    The President, as you know, over a year ago in the State of 
the Union, asked for an additional $600 million over 3 years 
for treatment through the Access to Recovery program, on top of 
the $2 billion block grant that we have. He asked us, how do we 
close the treatment gap. Our national estimate is that roughly 
100,000 people a year seek treatment and are not able to get 
it, based on our national survey. The average cost of treatment 
figure for the Federal Government is $2,000 per episode. The 
$200 million he asked for for over 3 years is 100,000 people 
times $2,000. We offer to be an example of closing that gap at 
the Federal level.
    We got from Congress last year the first $100 million. We 
just got applications for that money, 44 States, the District 
of Columbia, Puerto Rico and 20 Native American tribes applied. 
With some members, I'm not saying members at this table, of 
this body, we had trouble convincing them that we could use 
that money or be able to make this program work. I think the 
fact that we've had the applicants we are of the overall 
estimates of numbers that need treatment aren't sufficient 
indicates we need the full $200 million we asked for for the 
next year.
    In addition, we have put in a series of programs that are 
designed to help to move people into treatment that need it. We 
have released moneys that will tie crucial health systems, I 
was at Ben Taub Hospital in Houston, in the Chicago area we 
have funded County Hospital in Chicago, to train all workers, 
as well as doctors and nurses, to screen those people who come 
into our emergency rooms, many of whom have accidents or are 
suffering from substance abuse, to screen them and to give them 
the training to provide them reliable ability to refer 
individuals to intervention or treatment for substance abuse.
    In Houston, they will do 100,000 people this year. They 
will spread it to their satellite community clinic center and 
do a million people a year. We have 7 million people we 
estimate that need treatment. Many of them are in denial, as we 
know, every family suffered substance abuse directly or 
indirectly. The most pernicious part of this disease is denial. 
We need help to bring people in. We have asked for additional 
moneys to support drug courts where, when individuals come into 
the criminal justice system largely because they have an 
addiction, rather than allowing them to go down a path to jail, 
we use the supervision of drug treatment courts, as you know, 
to get them into treatment and to help them stay there, which 
we know is a key to their success.
    We've had trouble getting those funds. Congress funded half 
our request.
    Ms. Watson. Excuse me, I'm going to ask you to yield before 
the Chair makes his----
    Mr. Walters. Sure.
    Ms. Watson. This is explosive, but I've got to say it. If 
we could take the financial benefit out of it, and I'm just 
going to throw that out, and anyone in the audience, and then 
our panel can figure out what that means, but some way, No. 1, 
we've got to treat people who are already addicted.
    Mr. Walters. Yes.
    Ms. Watson. But we have to take the benefit of people on 
the streets who sell this stuff. And somebody up on that 40th 
floor in the financial institution is involved. Too much money 
in it.
    Mr. Walters. Yes.
    Ms. Watson. So we have to do several things at the same 
time. Certainly try to eradicate, and I don't think we ever do 
it, because I remember opium in the far east going back 
centuries. I understand that in Afghanistan today, there are 
farmers now growing the crop to support their families.
    So we've got to work on the consumption over on this end 
and the business that surrounds it. Thank you very much. I 
appreciate your response.
    Chairman Tom Davis. Thank you, Ms. Watson.
    Mr. Walters. If I could just touch on that point, we're 
focused on the international programs. The international 
programs of the Federal Government, just to put it in context, 
because I think it is a point of emphasis, are a little over $1 
billion total worldwide, 9.1 percent of the Federal drug 
control budget. Interdiction is a little over $2.5 billion at 
our borders, a little over 20 percent of the budget request. 
Domestic law enforcement is a little over $3 billion, or 25 
percent.
    Forty-five percent of the overall budget is prevention and 
treatment, 55 percent is supply control, including all those 
things. The single largest area of funding, at 29.4 percent, is 
the $3.7 billion we spend on treatment. We have made progress 
in prevention in the last 2 years. We want to treat people, 
because most of this cocaine, as you know, is going to 
dependent individuals, and we need to reduce that demand, and 
we need to do it through treatment at multiple points.
    But we are not, I didn't mean to suggest forgetting to do 
law enforcement in the United States, and of the key component 
that Administrator Tandy, who will be on a subsequent panel has 
done, is every single case DEA does has a money component. Take 
the money out, find the money. We do not believe we're doing a 
good enough job against the money. But we are doing a better 
job against the organizations and the structures that fund this 
here and abroad. We've linked in a consolidated way the 
business of the drug trade and focusing intelligence and 
enforcement efforts against that business.
    So we hope that in the future we will be able to both 
parallel what we are doing at home in what we're doing with 
other nations, as well as our partners in other parts of the 
world.
    Chairman Tom Davis. Thank you very much. Mr. Van Hollen, 
any questions?
    Mr. Van Hollen. No, thank you, Mr. Chairman.
    Chairman Tom Davis. All right, I think that's all. Thank 
you very much.
    Mr. Tierney. Mr. Chairman, could I ask just two questions?
    Chairman Tom Davis. Mr. Tierney.
    Mr. Tierney. Thank you for your patience. One is, I talked 
a little bit at the end of my questioning about reductions and 
the eradication and whether they affect price and purity. Can 
you tell me what the most recent price and purity data from 
your office is, what does it show?
    Mr. Walters. We have not seen a change in price and purity 
in the national average over the last couple of years in any 
aggregate. What I said was, we anticipate, given what we're 
seeing with the magnitude of eradication and interdiction, 
worldwide we seized 400 metric tons of cocaine in source 
countries and in transit last year. That's a record. And we 
know that it takes, the estimate is roughly 18 months to 12 
months for the floor from the pipeline in the fields to the 
streets of the United States. We expect to see that now, but we 
have not seen a change. I can give you the individual reports 
of price and purity for cocaine and supply those for the 
record.
    Mr. Tierney. Would you do that, please?
    Mr. Walters. Sure.
    Mr. Tierney. And last, following up on the Ambassador's 
questions on that, the precursors that you mentioned earlier 
that go into the production of the drugs and the money, 
obviously, what are we doing with respect to the manufacturers 
of those precursors and the distributors and to the banks or 
other financial interests, what's our effort there?
    Mr. Walters. Not to dodge, but some of the subsequent 
witnesses can give you more detail. Overall, what we have tried 
to do is identify key controllable precursors. Sometimes it's 
difficult because they are widely used, things like kerosene or 
some petrol products. There are some precursors that have been 
more critical in the refining process, and we've had efforts at 
various places to control them. In some cases, they have been 
forced to use less effective chemicals as a response and in 
some cases they've used new methods, so we tried to stay at it.
    I think the most encouraging thing on the money side is the 
effort that Colombia and Mexico have made with us to go after 
the black market peso, the exchanges which we believe are a 
source of funding a great deal of this, where money comes back 
through a system that's been used in some cases to evade taxes 
even on a larger scale in Latin America than to launder drug 
money.
    Now, we also know that there are instances where people 
move bulk cash out of the country, we seize it, we're 
increasing our efforts to focus on that as well. But what we 
have tried to do now for the first time, and I believe you will 
see cases, frankly, in the next 12 months, that begin to go 
after the larger volumes of money. But we have billions of 
dollars here. We consider it a weakness that we have not been 
able to do a better job.
    Now, a substantial portion of that money is of course being 
pulled out at the local level where the money first turns from 
drugs into dollars. And it's being used to fund criminal 
activity and other activities in our own cities. There are 
people, I was just in Chicago, who believe we ought to call our 
urban drug traffickers urban terrorist instead of drug 
traffickers, because of the violence, the shooting, the murder 
and mayhem that they cause.
    But we need to do a better job on the money side of it. But 
it's also, you know, there aren't an enormous number of things 
we need to do. It's basically common sense. We need to collapse 
this business. We have to begin with demand, everybody agrees 
with prevention, we have to do treatment. We have to be able to 
go to where the source is, so they can't operate with impunity.
    But we also have to do a better job at home. My office has 
begun to work with major metropolitan areas to bring together 
demand and enforcement. We've begun to work with our Federal 
partners to create a consolidated priority targeting list of 
major organizations. We want to go after the business as a 
trade, and I think your question is right on point, we need to 
accelerate that. But that is something we've learned I think in 
regard to terror we have to do. It's a small number of people, 
but we've got to find them because they do a great deal of 
damage.
    Mr. Tierney. In the GAO report that came out of the Senate 
testimony back in June of last year, talked about a lack of 
adequate performance measures with respect to Plan Colombia. If 
I just turn that over a little bit and say, do you have any 
performance measures with respect to how we're doing against 
these manufacturers and distributors of precursors and the 
financiers?
    Mr. Walters. I don't think we have a clear numerical goal 
on the precursors, simply because some of them are 
controllable, some of them aren't. We're not quite sure how 
much is being diverted. We try to put in diversion control 
programs in a variety of these countries that have had some 
effect. But because we don't entirely know how much they use, 
or it's hard to tell sometimes how much is being diverted from 
year to year. We have seen changes in the past in the aggregate 
quality of the product.
    For example, Bolivian-produced, on average Bolivian-
produced cocaine and cocaine base is of very low quality. It's 
largely, we believe, being sent to Brazil, because it's a 
fledgling market, where inferior product can be consumed. But 
it has not been able to maintain that. Some of that is because 
of chemical controls as well as the ability to control the 
market. So it does vary. It's hard to give you a precise 
answer, because we can't rack and stack the exact number of 
gallons that go in and get diverted in each place.
    But let me try to get back to your staff and to the 
committee with the best information we have, because it is an 
important sector.
    Mr. Tierney. I thank you for that. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you. Mr. Souder, you have some 
followup.
    Mr. Souder. I wanted to make an addition to Mr. Tierney's 
information request. Accountability is one of the most 
difficult things we have here. But when you respond with the 
price and purity figures, if you could also include any 
evidence on stockpiling, because we simply don't know what 
happened in some of this period, including how long is the 
shelf life of this cocaine when it heads out. We certainly have 
found piles of it different places that may have gone before 
the implementation of our plan. How long and what potentials 
are in that messes up our numbers? Because if you have a 5-year 
shelf life, a 10-year shelf life, a 2-year shelf life, if we 
have stockpiles in Mexico or in places in the United States, 
that messes up our measures of effectiveness.
    The second thing is on the signature program, because I've 
been perplexed by this for a long time, that we apparently 
depend on determining where the stuff's coming from a lot on 
the production method. And in watching the production method, 
as others copy Colombian methods, is it possible that some of 
this has moved to Mexico? Are we confident of the signature 
program and what are we doing with that?
    Mr. Walters. I can answer two of those. On the shelf life, 
I'll get back to you on, because I want to give you accurate 
information. I am concerned about stockpiling as well. We have 
no evidence, concrete evidence of significant stockpiling. 
There have been theories that one of the reasons we haven't 
seen more of a reduction is that first of all, the FARC had 
stockpiles in what was the demilitarized zone, and when the 
Government of Colombia went in or ended that zone, they may 
have shipped those out.
    There also has been some speculation that the right wing 
paramilitaries, the AUC, in engaging in these peace talks, may 
have taken stocks and moved them out of the country. We do not 
have concrete evidence to confirm that at this point. So we 
don't know whether there's----
    Mr. Souder. What about Mexico?
    Mr. Walters. We do not have evidence, to the best of my 
knowledge, maybe other witnesses will have something else, but 
we work pretty closely together on this, because we're trying 
to measure the flow of substantial and large stockpiles that 
would affect the overall measure in a strategic way.
    On the signature program, we do use processing, you're 
absolutely right, of course. We are trying to develop another 
method that will allow us to determine where the product comes 
from based on where the plant is grown. We are funding this and 
it looks promising. We're trying to accelerate that as rapidly 
as possible with DEA's laboratory and we'll give you a full 
brief on that, and your staff, at a time convenient to you.
    Chairman Tom Davis. OK, thank you very much. We're going to 
move to our next panel, we'll take a 2-minute recess. Thank you 
very much, Director Walters.
    [Recess.]
    Chairman Tom Davis. Again, I want to thank our witnesses 
for appearing today. Joining us on our second panel will be the 
Ambassador of Colombia to the United States, the Honorable Luis 
Alberto Moreno. Ambassador Moreno will provide the committee 
with an update on his country's ongoing fight against drugs and 
terror. Several important leaders in the administration who are 
key figures in the battle against narcoterrorism also join us. 
We welcome the Honorable Roger Noriega, the Assistant Secretary 
of State for Western Hemisphere Affairs; the Honorable Robert 
Charles, who will be with us in just a minute, Assistant 
Secretary of State for International Narcotics and Law 
Enforcement Affairs; the Honorable Thomas O'Connell, the 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict; General James T. Hill, the Commander of the 
U.S. Southern Command; and finally, last but not the least, the 
Honorable Karen Tandy, the Administrator of the DEA.
    We welcome all the witnesses and their testimony today. 
It's our policy that we swear you in before you testify. If 
you'll just rise with me and raise your right hand.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much. I think you know 
the rules. Ambassador Moreno, we'll start with you. Thank you 
for being with us.

  STATEMENTS OF LUIS ALBERTO MORENO, AMBASSADOR TO THE UNITED 
  STATES OF AMERICA, REPUBLIC OF COLOMBIA; ROGER F. NORIEGA, 
   ASSISTANT SECRETARY FOR WESTERN HEMISPHERE AFFAIRS, U.S. 
 DEPARTMENT OF STATE; ROBERT B. CHARLES, ASSISTANT SECRETARY, 
   INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
 DEPARTMENT OF STATE; THOMAS W. O'CONNELL, ASSISTANT SECRETARY 
  OF DEFENSE, SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT; 
   GENERAL JAMES T. HILL, U.S. ARMY COMMANDER, U.S. SOUTHERN 
 COMMAND; AND KAREN P. TANDY, ADMINISTRATOR, DRUG ENFORCEMENT 
           ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Ambassador Moreno. Thank you, Mr. Chairman, ranking member 
and distinguished members of the committee. It is my distinct 
pleasure to appear before you today to discuss developments 
relating to Plan Colombia and the current situation in my 
country. I have a written statement that I would like to submit 
for the record.
    Chairman Tom Davis. Without objection. All of your written 
statements will be in the record, as will, I might add, let me 
just interrupt you, Mr. Souder has a statement he wants to put 
in the record.
    Mr. Souder. This is an insertion about the Colombian 
conflict.
    Chairman Tom Davis. Without objection, that will be 
inserted.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.030
    
    [GRAPHIC] [TIFF OMITTED] T6408.031
    
    [GRAPHIC] [TIFF OMITTED] T6408.032
    
    [GRAPHIC] [TIFF OMITTED] T6408.033
    
    [GRAPHIC] [TIFF OMITTED] T6408.034
    
    [GRAPHIC] [TIFF OMITTED] T6408.035
    
    [GRAPHIC] [TIFF OMITTED] T6408.036
    
    [GRAPHIC] [TIFF OMITTED] T6408.037
    
    [GRAPHIC] [TIFF OMITTED] T6408.038
    
    [GRAPHIC] [TIFF OMITTED] T6408.039
    
    [GRAPHIC] [TIFF OMITTED] T6408.040
    
    [GRAPHIC] [TIFF OMITTED] T6408.041
    
    [GRAPHIC] [TIFF OMITTED] T6408.042
    
    [GRAPHIC] [TIFF OMITTED] T6408.043
    
    [GRAPHIC] [TIFF OMITTED] T6408.044
    
    [GRAPHIC] [TIFF OMITTED] T6408.045
    
    [GRAPHIC] [TIFF OMITTED] T6408.046
    
    [GRAPHIC] [TIFF OMITTED] T6408.047
    
    [GRAPHIC] [TIFF OMITTED] T6408.048
    
    [GRAPHIC] [TIFF OMITTED] T6408.049
    
    [GRAPHIC] [TIFF OMITTED] T6408.050
    
    [GRAPHIC] [TIFF OMITTED] T6408.051
    
    [GRAPHIC] [TIFF OMITTED] T6408.052
    
    [GRAPHIC] [TIFF OMITTED] T6408.053
    
    [GRAPHIC] [TIFF OMITTED] T6408.054
    
    [GRAPHIC] [TIFF OMITTED] T6408.055
    
    [GRAPHIC] [TIFF OMITTED] T6408.056
    
    [GRAPHIC] [TIFF OMITTED] T6408.057
    
    [GRAPHIC] [TIFF OMITTED] T6408.058
    
    [GRAPHIC] [TIFF OMITTED] T6408.059
    
    [GRAPHIC] [TIFF OMITTED] T6408.060
    
    Chairman Tom Davis. Go ahead.
    Ambassador Moreno. Thank you.
    Let me begin by thanking the U.S. Congress for its support 
in Colombia's ongoing fight against drugs and terror and 
express my appreciation to the House Committee on Government 
Reform for holding this hearing. It pleases me as Colombian 
ambassador to the United States to pay tribute to the chairman 
of both the committee and the Subcommittee on Criminal Justice, 
Drug Policy and Human Resources Representatives Tom Davis and 
Mark Souder, for their personal commitment to the fight against 
the scourge of drug trafficking and their contribution to 
security and developing it in Colombia.
    I am pleased to report today that the U.S.-Colombian 
partnership under Plan Colombia and its successor programs has 
proved a sound investment for both our nations. Now in its 4th 
year of implementation, Plan Colombia has played a significant 
role in combating terrorism and narcoterrorism, restoring 
economic growth and strengthening the rule of law, human rights 
and alternative development opportunities.
    The illegal violent actors in Colombia's conflict have 
close ties with international networks that engage in drugs and 
arm trafficking, money laundering and other criminal 
activities. The United States is helping Colombia to cutoff the 
resources that these terrorist groups use to wage their war 
against Colombian society. Every day, thousands of Americans 
and Colombians work side by side, building a more secure and 
prosperous Colombia, and by extension, help advance U.S. 
strategic interests in the hemisphere.
    In recent years, Colombia has seen dramatic results in the 
eradication and interdiction of narcotics. I don't want to 
burden you or the committee with figures, all of which can be 
found in my written testimony. But I want to stress that there 
have been advances on every front. As of December 2003, coca 
crops were reduced by 33 percent, more than 300 tons of cocaine 
with an estimated street value of $9.5 billion have been seized 
since Plan Colombia started, and more than 9 metric tons of 
heroin have been removed from the U.S. market in 2003 alone.
    The current government's democratic security and defense 
policy, with key U.S. cooperation, has significantly enhanced 
the size, training and capabilities of Colombia's armed forces 
and police. More than 16,000 police officers have been added 
since 2000, with the result that today, every municipality has 
a police presence--a first for Colombia.
    As for the military, we have added 52,000 plus combat ready 
troops since 2000, a 60 percent increase. In addition, our 
armed forces have greatly improved their ability to move 
rapidly to conflict areas, thanks to U.S. provided helicopters 
and other specialty aircraft. These assets have been critical 
in the success of the aerial spraying program, both for the 
actual spraying of illegal crops and protecting personnel 
engaged in this dangerous activity.
    Enhanced military and police readiness has shifted the 
balance in the fight against narcoterrorist groups responsible 
for much of Colombia's violence and civil rights abuses to the 
government's advantage. As a result of Plan Colombia, the 
Colombian armed forces and national police have intensified 
military operations against these organizations. This is shown 
by significant increases in captures and casualties of members 
of all illegal armed groups.
    Importantly, with U.S. intelligence and training 
assistance, the Colombian military is being increasingly 
successful in going after high value targets in the terrorist 
leadership. In the last 5 months, two high ranking members of 
FARC have been captured. U.S. training and equipment have 
produced a new type of military force in Colombia: more 
professional, more efficient, more motivated, better equipped 
and more respectful of their obligation to human rights and 
international humanitarian law.
    The U.S. Government has provided training in areas like 
anti-terrorism, anti-kidnapping, bomb disposal and protection 
for senior officials. Notably, in 2003 alone, 73,000 members of 
the Colombian military received intensive training in human 
rights and international humanitarian law. There was a 
significant decline of human rights violations in Colombia 
during the year 2003, including a 48 percent decrease in extra 
judicial executions. To cite an example, homicides of trade 
unionists fell by 57 percent during 2003, and were down a 
further 25 percent in the first 4 months of this year.
    A vast program of judicial reform is underway in order to 
adopt the accusatorial system used in common law countries, a 
change that is expected to enhance the effectiveness of the 
administration of justice. To that end, 39 new oral trial 
courtrooms have been established with USAID, and training has 
been provided for 3,400 prosecutors, judges, magistrates and 
defense attorneys, as well as more than 700 community based 
conciliators.
    Since the beginning of Plan Colombia, nearly 200 persons 
have been extradited to the United States for criminal 
prosecution, and in 2003, prosecutions for money laundering 
rose by 25 percent, while asset forfeiture cases increased by 
42 percent. The United States and Colombia have successfully 
implemented alternative development and other social programs 
to help coca and poppy farmers' transition to legal activity 
and provide relief to other citizens affected by terrorism and 
crime. More than 45,000 hectares of legal crops are now in 
place, benefiting more than 34,000 families who have committed 
to give up the cultivation of illegal crops.
    Plan Colombia has also successfully completed 835 social 
and economic infrastructure projects, including roads, schools, 
health clinics and sewer systems in the southern region of 
Colombia, where this development leads to reduced dependency on 
illegal drug cultivation and production. It has also provided 
assistance to more than 1.6 million internally displaced 
persons, individuals and families who have been forced to flee 
their homes and communities because of violence.
    Additionally, U.S. support for military and social programs 
has enabled the Colombian Government to earmark the necessary 
resources for education and health care. This has translated 
into a substantial increase in the number of children enrolled 
in public schools and a significant enlargement in the reach of 
the public health care system.
    A strong, growing Colombian economy is fundamental for 
stability and defeating drugs and terror. Plan Colombia has 
contributed significantly to restoring investor and consumer 
confidence and fueled economic recovery in the country. GDP 
growth in 2003 was 3.8 percent, the highest rate since 1995, 
and more than 1.2 new jobs were created. Following the renewal 
of the Andean Trade Preferences Act in 2003, Colombia-U.S. 
bilateral trade grew 10 percent in 2003 to $10.1 billion, 
contributing to the creation of thousands of jobs in both 
countries. Building on that momentum, Colombia and the United 
States have just started free trade negotiations. A free trade 
agreement with the United States will significantly enhance 
Colombia's long term economic prospects and security, and 
create a positive and predictable environment for new foreign 
and domestic investment.
    While significant progress has been achieved under Plan 
Colombia, the battle against narcoterrorism is far from over. 
Colombia and the U.S. need to consolidate the gains in terms of 
security, law and order and economic growth and begin to look 
ahead to ensuring lasting peace, stability and prosperity in 
the long term.
    Some specific challenges ahead are as follows: sustaining 
the military offensive against narcoterrorist groups. As 
Colombia continues to take the fight to the terrorists, the 
country will need sustained U.S. assistance in the medium term. 
This assistance is vital to consolidate the security gains 
achieved so far and to ensure the success of ongoing military 
operations in remote areas of the country. Moreover, continued 
U.S.-Colombian cooperation on the counter-narcotics and 
transnational crime fighting fronts will help to starve 
narcoterrorist groups of the drug proceeds they need to 
maintain their fighting and logistical apparatus.
    Consolidating economic recovery through an FTA with the 
United States expanding international trade and attracting 
foreign investment remain critical to promoting economic 
growth, employment and security in Colombia. An FTA with the 
United States will not only increase exports and promote job 
creation, but also help attract foreign direct investment to 
the country in such crucial sectors as oil and gas, where 
Colombia has enormous untapped potential.
    While Colombia continues to exert military pressure on 
narcoterrorist organizations, the government has opened the 
door for talks with groups and individual combatants genuinely 
interested in giving up their arms. The government is 
determined to seek a peace agreement with these groups in 
accordance with our legislation and mindful of international 
standards. Within this framework, a peace process with the AUC 
is currently underway with international verification. And 
there is now a distinct possibility of negotiations with the 
ELN under the auspices of the Mexican Government.
    As part of any agreement, demobilizing illegal combatants 
must be realized on a scale never before attempted in Colombia. 
Therefore, these processes will pose enormous challenges and 
require significant financial resources.
    We must continue to provide help to thousands of Colombian 
families who have been displaced by terrorism and violence. 
This means returning them to their homes and communities, 
helping them find productive employment and generally enabling 
them to restart their lives. It is also imperative that we work 
to repair the damage done to our valuable rain forest 
ecosystems by terrorists and drug traffickers, both in terms of 
forest destruction and the widespread dumping of precursor 
chemicals into the Amazon River systems.
    Colombia looks forward to working on the consolidation of 
Plan Colombia, in order to build on the progress we have 
realized to date and to develop new, cooperative efforts to 
address the changing nature of the conflict. As President Uribe 
aptly put it during his recent visit to the United States, we 
are more now than ever determined to stay the course.
    Thank you very much.
    [The prepared statement of Ambassador Moreno follows:]
    [GRAPHIC] [TIFF OMITTED] T6408.061
    
    [GRAPHIC] [TIFF OMITTED] T6408.062
    
    [GRAPHIC] [TIFF OMITTED] T6408.063
    
    [GRAPHIC] [TIFF OMITTED] T6408.064
    
    [GRAPHIC] [TIFF OMITTED] T6408.065
    
    [GRAPHIC] [TIFF OMITTED] T6408.066
    
    [GRAPHIC] [TIFF OMITTED] T6408.067
    
    [GRAPHIC] [TIFF OMITTED] T6408.068
    
    [GRAPHIC] [TIFF OMITTED] T6408.069
    
    [GRAPHIC] [TIFF OMITTED] T6408.070
    
    Chairman Tom Davis. Thank you very much, Ambassador Moreno.
    Assistant Secretary Noriega.
    Mr. Noriega. Thank you very much, Mr. Chairman.
    I want to thank you and members of the committee for your 
continued leadership on U.S. policy toward Colombia, and in 
particular, on your willingness to engage with Colombian 
Government officials and to take congressional delegations to 
Colombia to see for yourselves the reality there. We believe 
that the engagement of the U.S. Congress, the leadership of the 
U.S. Congress on this issue is crucial to developing, 
implementing and maintaining momentum behind our policy on 
Colombia, which is, I think you will agree, paying solid 
dividends for our national interests. It is these common 
efforts between the Congress and the executive branch, and the 
bipartisan support that this policy enjoys, that make a big 
difference to our success and the prospects for meeting our 
objectives.
    You see before you here, Mr. Chairman and members of the 
committee, members of an interagency team here, that work 
together well in implementing this policy. There are many who 
you have met also in the field, in Colombia, led by Ambassador 
Bill Wood, members of the various agencies that are represented 
here who put their lives at risk, playing an important role in 
implementing our policy in Colombia. I want to recognize their 
great contribution.
    Mr. Chairman, you and your colleagues know this integrated 
policy very well. We support the Colombian Government's efforts 
to defend and to strengthen its democratic institutions against 
the acute threat of narcoterrorism, to promote respect to human 
rights and the rule of law, to intensify counter-narcotics 
efforts, to foster social and economic development and 
investment, and to address immediate humanitarian needs that 
Colombia is confronting.
    As several of you have seen for yourselves, Colombia is a 
vastly different country today than what it was just 5 years 
ago. Then, many feared that South America's oldest democracy 
could unravel to a failed narco-state. Today, Colombia is 
heading in a very different, very promising direction, 
consolidating itself as a stable nation that provides security 
and stability for its citizens. Today, Colombians have greater 
confidence and optimism for the future. Today it is the 
narcoterrorists who are on the defensive.
    Colombia's economy is growing and investors are again 
looking to tap the rich entrepreneurial spirit of the Colombian 
people, the private sector. The Colombian people overwhelmingly 
support President Uribe's leadership and in establishing 
democratic security for all of Colombia's people. In addition 
to providing vision, determination and a sense of urgency, 
President Uribe has accorded 16 percent of Colombia's national 
budget now to national defense.
    While serious challenges remain, the news from Colombia 
over the past several years tells a story of steady progress. 
Since 2002, the Colombian national police supported by the 
United States, has sprayed close to 760,000 acres of coca and 
coca cultivation has declined dramatically each year. Opium 
cultivation declined by 10 percent in 2003, and we are always 
seeking new ways to find that crop and kill it.
    With the expanded authority provided by the U.S. Congress, 
we've been able to assist Colombia's counter-terrorism efforts 
against the 30,000 people who make up three guerrilla groups, 
the FARC, the ELN and the AUC, each of which have been 
designated a foreign terrorist organization by the U.S. 
Government. The Colombian military, in concert with the 
national police, is taking the fight to these terrorist groups 
like never before, significantly stepping up defensive 
operations and arrests.
    At the same time, President Uribe continues to hold out the 
possibility of a peaceful settlement to these conflicts. Both 
the AUC and the ELN have demonstrated an interest in such a 
process in recent weeks. However, President Uribe has insisted, 
I think wisely, that irregular groups observe an immediate 
cease-fire and end their illegal activities as preconditions 
for this process moving forward.
    The recent massacre of 34 coca farmers in the northern town 
of La Gabarra is proof that the FARC guerrillas have yet to 
forego their use of violence and their involvement in the drug 
trade. While we support the peace process as part of President 
Uribe's strategy for defeating terrorist groups and imposing 
the rule of law, we have made clear that any settlement must 
hold criminals accountable for their crimes. In particular, we 
have stressed that we will continue to press for the 
extradition of Colombians indicted by the United States.
    President Uribe's Plan Patriota has put the FARC on the 
defensive. Last year, the Colombian military effectively 
cleared the province around Bogota of terrorist fighters. This 
year, they have expended operations in south central Colombia, 
deploying troops into the traditional FARC stronghold, 
reclaiming municipalities that have long been in the hands of 
that organization, disrupting important lines of communication 
that are important to the terrorist threat and also to the 
narcotics trafficking.
    These efforts have produced real results, extending a 
permanent security presence into all of Colombia's 
municipalities. Internal displacement is down by 50 percent. 
Fifty key terrorists and their financiers have been killed or 
captured just since July 2003. Colombian defense spending is 
up, and the attacks on the vital Cano Limon oil pipeline is 
down dramatically in the last several years.
    Our human rights goals complement our policy. We consider 
Colombia a committed partner in promoting human rights, but we 
also leverage the human rights conditionality of our assistance 
program to push the Colombian Government to sever all 
paramilitary-military ties, and to bring to justice military 
officials involved in human rights violations, or involved with 
paramilitarism. We will continue to treat the protection of 
human rights as an essential part of our policy. Frankly, the 
Colombian Government can and must be even more proactive in 
identifying and remedying weaknesses in its human rights 
record.
    The human rights of our own citizens are at stake, too. We 
are now at about a 16 month mark for the captivity of three 
Americans who were part of our programs there, Keith Stencil, 
Mark Gonsalves and Thomas House. We are doing everything that 
we possibly can to arrange for their safe return.
    Mr. Chairman, our counter-drug efforts in Colombia are 
complemented by our programs in neighboring states where the 
illicit drug trade presents a historic problem. Our strategy is 
not to push coca cultivation from one country to another or 
from one part of a country to another, but to hammer away at 
every link in the drug chain in all of the countries concerned. 
We have made steady progress in reducing illicit crops in both 
Peru and Bolivia, as well as securing greater cross-border 
cooperation from Colombia's neighbors. We also recognize that 
trade and economic interaction must be part of our strategy, so 
that Colombia and, for that matter, its neighbors have the 
resources to carry on this fight and defend their sovereignty. 
That's why the trade talks that we are having with Andean 
countries is clearly very important.
    Mr. Chairman, skipping ahead, President Bush is committed 
to maintaining a robust partnership with Colombia, and we 
appreciate greatly Congress's abiding bipartisan leadership on 
the subject. It is important to note that the Colombian people 
themselves have shown the political will and have shared the 
financial burden to win the war and eventually to win the 
peace. We thank you very much, Mr. Chairman, and I'm prepared 
to answer any questions you might have.
    [The prepared statement of Mr. Noriega follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.071
    
    [GRAPHIC] [TIFF OMITTED] T6408.072
    
    [GRAPHIC] [TIFF OMITTED] T6408.073
    
    [GRAPHIC] [TIFF OMITTED] T6408.074
    
    [GRAPHIC] [TIFF OMITTED] T6408.075
    
    [GRAPHIC] [TIFF OMITTED] T6408.076
    
    [GRAPHIC] [TIFF OMITTED] T6408.077
    
    Chairman Tom Davis. Thank you very much.
    Mr. Charles, I have to swear you in. You were not here for 
the swearing in.
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much. The light will go 
on after 4 minutes, try to sum up after 5. Your entire 
statement is in the record, and we appreciate the job you did 
with the Speaker's Drug Task Force before you came here and now 
with the administration. Thanks for being with us.
    Mr. Charles. Thank you, Mr. Chairman, and I really 
sincerely want to thank you for holding this hearing and for 
frankly becoming so engaged in Plan Colombia and the Andean 
Counter-Drug Initiative. I think it's saving lives by the 
thousands and I think leadership by the U.S. Congress makes a 
huge difference. So I wanted to thank you, Mr. Chairman, and 
Chairman Souder and frankly, the Republican and Democratic 
leaders in the House of Representatives and Senate.
    Oddly enough, I think we are also at a unique, almost 
unprecedented moment. I think we are aligned. That leadership, 
your leadership in this chamber and in the Senate is aligned 
with a remarkable administration team that sees eye to eye with 
mutual respect, including Secretary Noriega, Secretary 
O'Connell, General Hill, Administrator Tandy. If you had us off 
microphone, we would be agreeing as fully as we will agree with 
you probably on the things we have to say today.
    I also think that is aligned with a third star element 
which is the U.S. ally, Colombia, and the extraordinary 
leadership of President Uribe and Ambassador Moreno. This is a 
unique time, and it is in that spirit that I want to offer you 
my thoughts, which will be abbreviated. Again, I want to thank 
you for inviting us.
    Plan Colombia, complemented by our regional efforts in the 
Andes, represents a significant investment by the American 
people and the Congress to fight the flow of drugs responsible 
for ending thousands of young lives each year in America, to 
fight powerful and entrenched terrorists in this hemisphere and 
to protect democratic rule across the Andean region. The 
success in Colombia over the past few years would not have been 
possible without strong leadership from President Uribe, who 
took office in 2002. His administration has taken an aggressive 
position against narcoterrorism, which enables our Colombia 
programs to work. It is again my pleasure to testify with my 
colleagues today, all of whom are leaders in their own right.
    In a sound bite, you have given us the power to make a 
difference, and in fact the investment in our national security 
is paying off. Generally, Congress has a right to look not only 
for sound policy and well managed implementation but also for a 
measurable return on the American people's investment. While 
measuring the shift of tectonic plates can be difficult, I 
believe we are seeing real and one may hope lasting change.
    In short, your investment is paying off in numerous ways, 
and you've heard the statistics, so I'm not going to go through 
them again. What I will say in real broad brush strokes is you 
have drug cultivation in Colombia down for a second straight 
year. By the way, the only time that has happened in the last 
14 years, and a double digit reduction at that, as Mr. Walters 
indicated.
    Second, you have, despite recent killings by the FARC, you 
have violent crime and terrorist attacks down and falling. 
Third, you have a respect for rule of law expanding in 
palpable, measurable ways and putting tap roots down in places 
we never had the rule of law. And finally, we're providing 
meaningful, often innovative alternatives to poverty level 
farmers, titling land, giving them opportunities they never had 
before by the thousands. The Andean Counter-Drug Initiative, as 
you know better than I, is a multi-front effort that does not 
begin and end with counter-narcotics. It is a robust effort, 
yours as much as ours, at creating a sustainable, regional, 
deep-seated and democratically faithful alternative to the 
destruction in terror on personal, national and hemispheric 
levels that comes from drug trafficking and drug funded terror.
    In short, what we do in places like Colombia has a direct 
effect on us here in the United States, whether it's Fairfax 
County or Fort Wayne, IN, or any of the other locations 
represented, it is directly affecting the security and the 
safety of hometown America. Our policy and our commitment, our 
aim is to wipe out narcoterrorists. We will never fully 
eliminate drugs from this hemisphere, but we can get them down 
to a level where they are de minimis and where those 
organizations are completely taken off the face of what we 
worry about day to day. Also to help Colombia seize their 
assets, strengthen Colombia's institutions and increase 
legitimate economic opportunities for those who wish to live 
free from drugs and terror.
    Central to the larger Andean Counter-Drug Initiative is 
restoring, preserving and sustaining the rule of law in cities, 
towns and the countryside in Colombia. Strong congressional 
support will be critical to reaching the end game, to 
consolidating the gains that you have heard already talked 
about and no doubt will elicit from us.
    So what is the end game? It's a hemisphere in which drug 
funded terrorism and corruption of struggling democracies by 
drug traffickers, by drug violence and by drug abuse on the 
streets of Bogota, but also back here at home in Mr. Cummings' 
district in Baltimore and all over this region, are simply 
reduced to a point where if they're not de minimis, they're 
dramatically down. And they are manageable at that lower level.
    As Assistant Secretary at INL, I have put a premium on 
management of these programs. INL is working with Congress, 
OMB, GAO, the State Department, IG's office and others in the 
executive branch to ensure the accountability that you require 
of us and that we should require of ourselves, that it is front 
and center and that every American taxpayer dollar that you 
give us to spend is actually achieving the purpose that you 
intend. For example, INL is working closely with the State 
Department's Bureau of Resource Management and with OMB to 
develop outcome measures much talked about earlier today that 
have in fact been front and center during the OMB-led program 
assessment rating tool process. We aim to make our programs 
models for performance based management.
    Since time is short, I'm going to jump right to my 
conclusion. That is that you will get from us the full promise 
to work together as a team, and you will get from me the 
dedication that INL will be trying to lead its programs toward 
the kind of conclusions you put in legislation and expected of 
us. Thank you, sir.
    [The prepared statement of Mr. Charles follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.078
    
    [GRAPHIC] [TIFF OMITTED] T6408.079
    
    [GRAPHIC] [TIFF OMITTED] T6408.080
    
    [GRAPHIC] [TIFF OMITTED] T6408.081
    
    [GRAPHIC] [TIFF OMITTED] T6408.082
    
    [GRAPHIC] [TIFF OMITTED] T6408.083
    
    [GRAPHIC] [TIFF OMITTED] T6408.084
    
    [GRAPHIC] [TIFF OMITTED] T6408.085
    
    [GRAPHIC] [TIFF OMITTED] T6408.086
    
    [GRAPHIC] [TIFF OMITTED] T6408.087
    
    [GRAPHIC] [TIFF OMITTED] T6408.088
    
    [GRAPHIC] [TIFF OMITTED] T6408.089
    
    [GRAPHIC] [TIFF OMITTED] T6408.090
    
    [GRAPHIC] [TIFF OMITTED] T6408.091
    
    [GRAPHIC] [TIFF OMITTED] T6408.092
    
    [GRAPHIC] [TIFF OMITTED] T6408.093
    
    [GRAPHIC] [TIFF OMITTED] T6408.094
    
    [GRAPHIC] [TIFF OMITTED] T6408.095
    
    [GRAPHIC] [TIFF OMITTED] T6408.096
    
    [GRAPHIC] [TIFF OMITTED] T6408.097
    
    Chairman Tom Davis. Thank you very much.
    Mr. O'Connell, thank you for being with us as well.
    Mr. O'Connell. Chairman Davis, distinguished members of the 
committee, it's my honor to appear before you today to discuss 
the Department of Defense programs and policy that support that 
National Drug Control Strategy, and provide a current 
assessment of this strategy's effectiveness in Colombia.
    The Department appreciates the support Congress provides, 
and it's critical to our efforts in fighting narcoterrorism in 
Colombia. In fact, last week, sir, I had the honor of spending 
a solid afternoon with Representative Souder's staff over here, 
in a very instructive exchange on a wide range of issues. We 
do, sir, appreciate the congressional interest and support that 
we get.
    Over 75 percent of the world's coca is grown in Colombia, 
and nearly all the cocaine consumed in the United States is 
produced and shipped from Colombia. This coca is primarily 
grown in remote areas of Colombia where there is little 
government control. Colombian narcoterrorists receive large 
majorities of their funds from protecting, taxing and engaging 
in this illegal drug trade. These narcoterrorists seek to 
overthrow the freely elected Colombian Government, the oldest 
democracy in Latin America.
    The Secretary of Defense has promised Colombian President 
Uribe increased support for the Colombian counter-
narcoterrorist effort. Under President Uribe's leadership, 
Colombia is regaining control of areas long held by the 
narcoterrorists. It has made exceptional progress in fighting 
drug trafficking and terrorism, while improving respect for 
human rights. Colombian security policies have diminished, the 
ELN put the FARC on the defensive and pushed the AUC to come to 
the negotiating table. The Colombian Government and its people 
are committed now more than ever to save their country.
    With only a few years left in office, the continued 
leadership of President Uribe offers Colombia a unique window 
of opportunity to preserve democracy. This administration 
supports President Uribe against FARC and other narcoterrorists 
by providing resources in support of Colombia's Plan Patriota. 
In order to maintain the momentum achieved thus far by the 
Colombians, Congress provided expanded authority in fiscal year 
2004 to support Colombia's counter-narcoterrorist efforts. In 
the same year, expanded authority has been crucial to leverage 
our resources both against narcotics and terrorism. We thank 
Congress for supporting our request to extend that expanded 
authority to fiscal years 2005 and 2006, and in the fiscal year 
2005 defense authorization bill.
    The Department asked Congress for reprogramming authority 
of $50 million during this current fiscal year and I'm pleased 
to report that the Department will be able to increase our 
efforts in Colombia in fiscal year 2005 by some $43 million.
    In the coming year, as the Colombian military will be 
conducting full scale operations across the country, the 
personnel cap will begin to have a deleterious effect on 
Colombia's counter-narcoterrorism mission. The current troop 
cap limits the U.S. presence in Colombia to 400 military 
personnel and 400 contractors under most conditions. SOUTHCOM 
manages this on a daily basis, often canceling or postponing 
personnel travel to Colombia. While U.S personnel will not be 
directly on the front lines, more training and planning 
assistance will be required for the Colombian military, who 
will be directly engaged on a broader front to defeat the 
narcoterrorists.
    We should support this effort with manning that bolsters 
increasing Colombian military needs. Consequently, the 
administration requested an increase of the personnel cap to 
800 military and 600 contractor personnel. The administration's 
request of 800 military personnel and 600 civilian contractors 
is part of a well-defined, well-phased plan. The 
administration's plan was developed with the government of 
Colombia to maximize the impact of its Plan Patriota. The 
Department urges that the administration's request be 
supported.
    As an aside, sir, I'd like to pay tribute to my 
administration colleagues here at the table. This is a tough 
and hard working administration team that works well together 
and realizes the challenges we're up against.
    As a last thought, sir, I've had the opportunity to be both 
on the ground 20 years ago as a U.S. officer, fighting 
terrorism in Colombia, and I've had the opportunity to stand 
with Secretary Rumsfeld and President Uribe. Those 25 years 
have seen a remarkable change and I look forward to being able 
to answer your questions later today.
    Thank you, sir.
    [The prepared statement of Mr. O'Connell follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.098
    
    [GRAPHIC] [TIFF OMITTED] T6408.099
    
    [GRAPHIC] [TIFF OMITTED] T6408.100
    
    [GRAPHIC] [TIFF OMITTED] T6408.101
    
    [GRAPHIC] [TIFF OMITTED] T6408.102
    
    [GRAPHIC] [TIFF OMITTED] T6408.103
    
    [GRAPHIC] [TIFF OMITTED] T6408.104
    
    [GRAPHIC] [TIFF OMITTED] T6408.105
    
    Chairman Tom Davis. Thank you very much.
    General Hill, welcome.
    General Hill. Thank you, Mr. Chairman, Chairman Souder. I'm 
honored for this opportunity to appear before you today to 
provide my assessment of Plan Colombia.
    I greatly appreciate the support of the committee for the 
U.S. Southern Command and to soldiers, sailors, airmen, 
marines, Coast Guardsmen and the civilian personnel I am so 
privileged to command.
    As I mentioned in my written statement, Colombia is at a 
decisive point. Although there is much work to be done, our 
country's significant investments in Plan Colombia and the 
Andean Ridge Initiative are beginning to show substantial 
results. The trends are generally positive. The Colombian 
economy is growing, major categories of criminal activity are 
down, narcotics production is down, terrorist attacks have been 
cut almost in half. Desertions and demobilizations by the 
narcoterrorist organizations are increasing.
    The military has grown into a professional, competent force 
that respect human rights and the rule of law and has gained 
the strategic initiative. I am therefore guardedly optimistic 
that President Uribe and his government can bring security and 
stability to Colombia. Over the past 22 months, I have traveled 
to Colombia 26 times, and will go again next week. I have 
worked closely with President Uribe, Minister of Defense Uribe 
and his predecessor, Minister Ramirez, along with General 
Ospina, the Chief of the Armed Forces, and his predecessor, 
General Mora.
    I have seen these strong and determined leaders in action. 
I have visited all corners of Colombia and witnessed the 
tremendous cooperation between our armed forces. I have seem 
the professionalism and increased capabilities of the Colombian 
military. I have also been inspired by the dedication of the 
Colombian soldiers in their daily fight to defend Colombian 
democracy against vicious narcoterrorists.
    I have observed Colombia's leaders inculcate the government 
and armed forces with an aggressive spirit. The Colombian 
people believe they can win the war against the narcoterrroists 
and end the violence. They are operating in an established 
governmental presence in areas of the country they have not 
been in in decades. They have built and are executing an 
extensive and aggressive campaign plan to systematically break 
Colombia's narcoterrorists' will to fight.
    Fully understanding that the problems of Colombia do not 
have a simple military solution, President Uribe and his 
administration are building the political, social and economic 
systems that will eventually return Colombia to the ranks of 
peaceful and prosperous nations. However, as it currently 
stands, President Uribe has only two more years in office, 
which coincidentally will mark the end of Plan Colombia.
    Consequently, it is important that we sustain the progress 
that has been made under Plan Colombia, and that he gets our 
steady support to set all of his long term initiatives firmly 
into place. As one of the oldest democracies in this 
hemisphere, a key trading partner and supplier of oil, a 
staunch ally and only 3 hours from Miami, a stable Colombia is 
important to our national security interests.
    Thank you again for this opportunity to appear before you. 
I look forward to your questions.
    [The prepared statement of General Hill follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.106
    
    [GRAPHIC] [TIFF OMITTED] T6408.107
    
    [GRAPHIC] [TIFF OMITTED] T6408.108
    
    [GRAPHIC] [TIFF OMITTED] T6408.109
    
    [GRAPHIC] [TIFF OMITTED] T6408.110
    
    [GRAPHIC] [TIFF OMITTED] T6408.111
    
    [GRAPHIC] [TIFF OMITTED] T6408.112
    
    [GRAPHIC] [TIFF OMITTED] T6408.113
    
    [GRAPHIC] [TIFF OMITTED] T6408.114
    
    [GRAPHIC] [TIFF OMITTED] T6408.115
    
    [GRAPHIC] [TIFF OMITTED] T6408.116
    
    [GRAPHIC] [TIFF OMITTED] T6408.117
    
    [GRAPHIC] [TIFF OMITTED] T6408.118
    
    [GRAPHIC] [TIFF OMITTED] T6408.119
    
    [GRAPHIC] [TIFF OMITTED] T6408.120
    
    [GRAPHIC] [TIFF OMITTED] T6408.121
    
    [GRAPHIC] [TIFF OMITTED] T6408.122
    
    [GRAPHIC] [TIFF OMITTED] T6408.123
    
    [GRAPHIC] [TIFF OMITTED] T6408.124
    
    Chairman Tom Davis. Thank you very much.
    Ms. Tandy, thank you for being with us, last but not the 
least. We appreciate the job you're doing.
    Ms. Tandy. Thank you, Chairman Davis. It's a privilege to 
be last before you today and also Chairman Souder. And 
certainly an honor to discuss with you today the Drug 
Enforcement Administration's counter-narcotics role in Plan 
Colombia.
    I want to thank you first for your strong leadership and 
support of DEA's work worldwide, and certainly specifically in 
Colombia. Few tasks are more critical to the security, peace 
and prosperity of the western hemisphere than dismantling and 
disarming Colombian drug cartels and their terrorist 
associates. Both the FARC and the AUC depend on drug 
trafficking as the primary means to support their terrorist 
activities. Plan Colombia's integrated strategy to combat the 
narcotics industry is working, and it is crucial to sustaining 
the progress that we have achieved to date. Plan Colombia and 
the courageous leadership of President Uribe have provided 
critical support to a number of coordinated and hugely 
successfully Colombian national police and DEA investigations.
    As you noted, Mr. Chairman, 6 weeks ago, we announced the 
indictments of nine leaders of the Norte Valle cartel. As you 
noted in your opening statements, this cartel is responsible 
for exporting more than $1.2 million pounds of cocaine to the 
United States since 1990, that value in excess of $10 billion. 
The cartel has been estimated to be responsible for a third to 
a half of the cocaine brought into this country, and it paid 
the AUC to protect its operations and its members. The 
indictments against the Norte Valle cartel are made possible 
through Plan Colombia.
    While the plan provides limited direct support to DEA, its 
impact in bolstering Colombian institutions and the rule of law 
has created a climate favorable to law enforcement. The justice 
sector reform program in particular has strengthened law 
enforcement institutions and infrastructure and directly 
supports two DEA programs in Colombia. First among these is the 
Bilateral Case Initiative. That initiative undertakes 
investigations of drug trafficking and money laundering 
organizations outside the United States for prosecution inside 
the United States. Under this program, we have built 
prosecutable cases in the United States that have led to more 
than 50 convictions.
    The second Plan Colombia supported program that DEA is 
involved in is a communications interception program that's 
funded by almost $5 million from Plan Colombia as part of the 
justice sector reform money. This wire intercept program 
enables the Colombian national police to gather intelligence 
through judicially authorized communications interceptions. 
Effectively carrying out these kinds of enforcement actions 
requires strong coordination with U.S. law enforcement and 
diplomatic communities and with our Colombian counterparts. And 
within Colombia, DEA consults on most U.S. counter-drug 
programs and coordinates with the Department of State and with 
other Federal agencies. And I am especially proud of the 
effective working relationship that DEA has cultivated with the 
Colombian national police, Colombian prosecutors and other 
Colombian law enforcement counterparts of ours.
    Within this cooperative framework, DEA continues a number 
of our own initiatives that are critical to our success in 
Colombia. Our Sensitive Investigation Unit, which we refer to 
as SIUs, take the lead in operations against the consolidated 
priority target organizations and other related targets. The 
specialized financial investigation groups that we have set up 
have focused on divesting traffickers of the proceeds of their 
crimes, and we're working to interdict the flow of drugs to the 
United States by targeting go-fast boats leaving Colombia, and 
in the last year, we have almost doubled cocaine seizures 
through Operational Firewall.
    We are also working in Colombia's airports to stop heroin 
and cocaine couriers. Our strong partnership with Colombia and 
the programs that I've just described have led to major 
enforcement successes. For example, Operation White Dollar 
dismantled a massive international money laundering ring 
responsible for laundering millions of drug dollars through the 
black market peso exchange. It resulted recently in 34 
indictments and the forfeiture of $20 million in the United 
States.
    These are victories, these are successes for Colombia, but 
these are victories for America. When we dismantle drug 
cartels, we eliminate criminals responsible for bringing in 
massive quantities of poison into our own neighborhoods and 
reciprocally, we know that violence, instability and terrorism 
in Colombia are fueled by American drug consumption. Our 
successes strengthen Colombia and ultimately protect Americans 
from the misery of drug abuse.
    I thank you again for your continued support of DEA's work, 
and I'm sure I can speak for all of my colleagues and good 
friends on this panel that we are all very pleased now to 
answer any questions you may have.
    [The prepared statement of Ms. Tandy follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.125
    
    [GRAPHIC] [TIFF OMITTED] T6408.126
    
    [GRAPHIC] [TIFF OMITTED] T6408.127
    
    [GRAPHIC] [TIFF OMITTED] T6408.128
    
    [GRAPHIC] [TIFF OMITTED] T6408.129
    
    Mr. Souder [assuming Chair]. I thank you all, and I'm going 
to start the questioning, then Chairman Davis will be back to 
do some additional questions.
    First let me thank each of you and through you, all the 
people who work for you for their valiant efforts. With all the 
news focused on Iraq and secondarily Afghanistan, it's often 
forgotten by many American people that far more people are 
dying per month because of drug abuse than we're actually 
losing over the whole period of the Iraq war, and that Colombia 
is one of our, certainly even if you take Iraq and Afghanistan, 
the Indian expression would be, you can count them on one hand 
and have enough fingers left to bowl.
    In other words, there are very few countries that get as 
much money in foreign aid and in direct assistance as Colombia. 
As Congress, we have to have a lot of oversight on that and a 
lot of focus, and we can't lose track either of the deaths in 
the United States, the battles going on in Colombia, or the hot 
war in what's happening financially as we go through our 
budget.
    I also want to, even though we've had some very interesting 
conversations and I can't say how glad I am to see that Mr. 
O'Connell is in your position at the Defense Department. You're 
in a very critical position not only to back up SOUTHCOM but 
help CENTCOM, as well as Mr. Charles, having both Iraq and 
Afghanistan in his portfolio.
    It's important that people in your position understand that 
there is an interrelationship which you can really see in 
Colombia between the terrorists and the drug money. We're 
seeing that around the world and having people who are working 
all those simultaneously, even if the general public doesn't 
understand we've actually learned a lot in Colombia that now is 
applying in other areas.
    And how we stand up and how we work with that information, 
is very important because you're in positions with which to 
transfer that. And now with DEA on the ground and Afghanistan 
as well, we can kind of take those worldwide experiences, and 
secondarily, that you haven't forgotten about Colombia. Because 
while we're working on those highly visible things on 
television, the key thing is that it's still the primary 
supplier of cocaine in the world, and our major supplier of 
heroin and other things along with Mexico.
    With that, I have a couple of particular questions. I 
wanted to make sure I asked General Hill a question, Mr. 
O'Connell made some statements about the 800 military advisors 
that are proposed in the President's budget. I wonder if you 
could elaborate on that a little bit, why you think that's 
necessary.
    General Hill. Succinctly put, I need a lot more flexibility 
to support the Colombian Plan Patriota. About a year ago, they 
briefed me on this well thought out, conceived campaign plan, 
not a one-time military operation, but a campaign plan to 
retake the country. Specifically in the old Despye area, where 
they have not operated in 20 years.
    Today, they have the better part of two divisions and nine 
brigades, along with the joint task force out there conducting 
that fight daily. And they're having some wonderful success. 
What I need to be able to do is put enough planning assistance 
teams in there, logistical planners, operational planners, to 
assist them in carrying out this very valuable fight. I think 
all of us across the table have mentioned to you that we are at 
an increasingly closing window given President Uribe's time in 
office and for the end of the existent Plan Colombia. They will 
coincide together in 2 years.
    We need to take every opportunity to ensure that our 
already significant U.S. investment pays off. I believe that we 
can offer militarily a great deal of planning support to the 
Colombian military effort that I'm not able to do right now 
underneath the cap.
    Mr. Souder. I may do a followup to this, but I wanted to 
directly ask you this question. A number of years ago, General 
Wilhelm, when he was head of SOUTHCOM, said he was even 
micromanaging how planning and control, command and control 
systems were working on the ground, because the Colombian 
military was so in effect disorganized. It seemed as we first 
visited in the 1996, 1997 period, Ambassador Moreno would know, 
because he's kind of been the continuity of the Colombian 
Government and the voice and the picture of Colombia here in 
the U.S. Congress, and we really appreciate his continuity.
    But somewhere in there, when we started to go down, it 
seemed like the Colombian military never won a battle. In fact, 
we'd visit a place and then the next year we'd go down and we 
couldn't go there because it had been overrun. There are areas 
of combat, but what progress have you seen to respond to Mr. 
Duncan's concerns earlier? Have you seen changes in the 
Colombian military? Are the military advisors having that 
impact on the military?
    They certainly seem to be taking casualties. They seem to 
be taking some victories. Could you talk about that from a 
commander's sense? Because General McCaffrey, when he was 
there, was saying, look, this is going to be a long effort to 
rebuild this, to get vetted units, to do the human rights. Then 
General Wilhelm, General Clark and others.
    General Hill. Well, I think the work of my predecessors and 
the work of the Colombian military is in fact, it has made them 
a substantially better unit. They are a substantially more 
competent, capable force than when I assumed command 2 years 
ago. I have watched them. I took over command about the time 
that President Uribe came into office, within days of each 
other. He has inculcated in them a spirit of aggressiveness and 
they have responded. He's provided them the political support 
along with the Colombian people, and they have responded. They 
have moved out of the barracks. They are out in the field in 
the fight.
    Yours and the American people, through the Congress, 
substantial investment in Plan Colombia, the ability with the 
helicopter support that allows them to move rapidly around the 
battlefield, around the country in effect, take on the battle. 
So in just pure operational sense, they've improved 
significantly.
    I don't believe 2 years ago when I took command that you 
would have said to me, they're going to develop this Plan 
Colombia, Plan Patriota, excuse me, and then they're going to 
go out into the old Despye area and they're going to stay out 
there, not for 18 days, but for 18 months and conduct a 
campaign. I would have said there's no way they can do that. 
They're out there doing it today. And we are out there with 
them, helping them in a very meaningful way with advice, 
logistics and operational sustainment. This is not an easy 
military problem, and we're out there doing it.
    Mr. Souder. Mr. O'Connell.
    General Hill. Could I have one point, Mr. Souder?
    Mr. Souder. Yes.
    General Hill. The other thing that they're doing I think 
that's very important, and it should not go unnoticed, they 
have established a center for coordinated and integrated 
action. What is that? That is when an office that says, when we 
retake an area militarily, we will flow in directly behind it 
in a coordinated, integrated manner in order for those other 
elements of governance to ensure that we can stay the course in 
that village, and they've done a wonderful job of it.
    Mr. Souder. Mr. O'Connell, in your written testimony you 
had, I believe, stated that you were going to work for 
additional forward operating locations. Because one of the 
problems was when the FARC particularly moved over to the 
eastern side of Colombia and where we suspect they may have our 
kidnapped Americans, it's very difficult to move, because it's 
Amazon basin, it's parks, it's jungle. How are we going to deal 
with that, and do you have particular plans in the budget?
    Mr. O'Connell. Sir, on that, on the tactical operational 
side, if you don't mind, I'll defer to General Hill.
    General Hill. What the Colombian military has been able to 
do is very early on in the fight, under Plan Patriota, they 
reclaimed several major airfields in that area. Then they had 
flown in logistics behind them and it allowed them to both 
sustain the fight and to take their own aircraft, either 
helicopter, rotary wing or fixed wing and conduct operations 
out of there.
    Mr. O'Connell. Sir, when you referenced forward operating 
locations, with respect to those FOLs that we're concerned with 
outside of Colombia, as you know, the closure of Roosevelt 
Roads has posed some financial difficulties that we had not 
anticipated. And you and I have discussed those before and what 
demands on other accounts that we just----
    Mr. Souder. So you were talking about the in between, on 
the way in and out of Colombia?
    Mr. O'Connell. Yes, sir.
    Mr. Souder. As opposed to inside Colombia, where we also 
have a given problem?
    Ambassador Moreno, my impression is, and I know this was in 
the written testimony, but if you could expand on it now. You 
certainly alluded to it and had some detail on a number of 
towns where they actually have mayors now and have city 
councils up and running. There was not an understanding that 
until you get order and security, who wants to be a mayor? 
Could you talk a little bit about that, and then how you see 
that progressing into some of the zones where we still don't 
quite have functional control?
    Ambassador Moreno. These are very important questions, Mr. 
Chairman. Let me begin by saying that about 5 years ago, about 
30 percent of the municipalities in Colombia did not have the 
kind of military or police presence that we have today. Today 
all the municipalities have, the municipalities in Colombia 
have them. So inasmuch as this has been a policy of gaining the 
upper hand from the law enforcement side, from the eradication 
of coca, from the alternative development and the institutional 
strengthening, it has also been a battle for control of the 
territory in Colombia. Because without that, or absent that, 
it's impossible to really do the success that we require in 
terms of drug eradication.
    Certainly, for instance, when President Uribe came into 
office there were a number of mayors who had basically given up 
and resigned because there was either no security or simply 
because they didn't feel they were capable of doing their jobs 
under those circumstances. Today, increasingly with the help of 
General Hill, we're doing a lot in the way of planning, and 
integrated planning between both the military operation as well 
as the civilian side. Because I think we need the hearts and 
minds of the people in many of these municipalities. You 
require not only to have the security, but also to have the 
government be able to deliver services.
    Some of the things we have found, many of these 
municipalities that basically, the only thing that happened was 
the production of coca, or perhaps not viable the way they used 
to be. So it would require much more good work on the side of 
the government. But this is precisely the phase in which we're 
in right now.
    Mr. Souder. I thank you, and I want to mention two other 
things before I yield the Chair back to Mr. Davis. We really 
appreciate the efforts, Director Tandy, on-going after the 
financial and the money situation and what you've done to break 
up some of these big networks and follow through. And that I 
never really fully understood, until we got into the 
Afghanistan question, that even for DEA to be able to work on 
the ground, you must have some semblance of order. Because the 
DEA agents aren't the military. It is important to be able to 
infiltrate the different networks and to be able to move out 
farther, as the military establishes those zones, and then the 
DEA can move in, as we're attempting to do in Afghanistan, and 
start to break up the financial network.
    It's fine to talk about how we have to break up the 
financial networks, but if you can't get to the sources, 
because you're afraid of being blown up, it is a very difficult 
job. I appreciate the recent efforts. Do you have any specific 
requests of where you think Congress should focus more on DEA 
related to Colombia?
    Ms. Tandy. We have a number of issues with technology in 
terms of keeping pace with the changes in technology to support 
our ability to continue our partnership with the Colombian 
national police and the Intercept program. And it is the 
interception of communications that is key to our collection of 
intelligence to determine who is moving the billions of dollars 
derived from the American drug consumer. That is at a rate of 
about $65 billion a year, and to date, in the past, we have 
only successfully seized, and I say we, that's all Federal, 
State and local law enforcement, less than $1 billion.
    We have a long way to go. We have restored that priority 
within DEA, it was lost over the last number of years. And it 
is the No. 1 priority in DEA, because we will never effectively 
dismantle these cartels if we have left their money in place. 
To that end, as part of our right-sizing proposal, which has 
cleared the House and is in the Senate, we will be, once that 
is approved, if it is approved, we will add a money laundering 
task force to Bogota to complement our SIU that we have with 
DOS in Colombia that is currently focused on the money.
    We have challenges in that regard of simply having the 
necessary funds and boots on the ground to go after the money.
    Mr. Souder. Thank you very much. I will yield back to 
Chairman Davis. I know there are other questions I have. I want 
to thank you for that.
    I also want to make sure we have adequate radar coverage in 
all parts of the country, and we'll continue to talk about 
parts of Colombia where I have concerns, and also the ability 
to track. There is a sophistication where communications 
networks get better. And also, I'm pleased that we're able to 
work together with some of the private sector people who 
weren't particularly helpful for a while.
    Chairman Tom Davis [resuming Chair]. Let me just say thanks 
again to all of you. It really has been a team effort, as I 
think several of you have said in your testimony. Mr. 
Ambassador Moreno, let me ask you a question. The hero of 
today, which is the Colombian army, which is I think taking 
unprecedented steps to go into FARC controlled areas and other 
areas, do you think they have the staying power to defeat the 
FARC and the ELN? Do you think they're helping to bring the ELN 
to the conference table? Talks are going on, they're starting 
to sustain some heavy casualties. This is really a new test. 
Can you give us your appraisal of that? And then I'd like to 
hear from General Hill on the same thing.
    Ambassador Moreno. Yes, Mr. Chairman, clearly there's an 
opportunity with the ELN, the Mexican Government has been very 
cooperative. In fact, recently they named their Ambassador to 
Israel to begin the initial contacts with the ELN leadership to 
see if we can get to a situation where a negotiation can 
proceed. President Uribe from the beginning has always stated 
that our big condition for any pace process is that of a cease-
fire and ceasing of hostilities that would permit any process 
to go forward. I think it's too early to tell.
    My sense is from what I hear, and I would like to hear, of 
course, from General Hill, who is closer to the military on 
these issues, that the relative of the ELN progressively has 
been losing some of their strength as a result of clearly the 
better campaign that the military is doing with success, 
especially on territory controlled throughout the country. As 
that campaign under their control is successful, any group, any 
terrorist in Colombia will have a harder time going about its 
business.
    Chairman Tom Davis. What's the, in terms of the casualties 
and everything else that the army is taking on, any kind of 
ratios? What's happening with the FARC and the ELN as we go 
into some of these areas? What kind of resistance? Are we 
hitting them and they're running? Try to give me a feel for 
what's happening.
    Ambassador Moreno. I will try to give you some. Again, I 
would like to be complemented by General Hill.
    In terms of the number of both casualties and deserters, 
the numbers are very impressive. I mean, the last numbers that 
I've seen are around 7,000 in the last year between FARC, AUC 
and ELN, between people who have lost their lives on the field 
and those who have deserted. Clearly, the push on desertion has 
been working very well. This we have done again with some U.S. 
funding, especially for child soldiers. The number of combats, 
which I think is a very important denominator, has increased 
significantly, meaning that the army more and more is doing 
combats on the field. This is a very deep change from what it 
was as recently as 2 years ago.
    Chairman Tom Davis. General Hill, what's your appraisal?
    General Hill. Let me take that from a couple of different 
angles, Chairman Davis. One is in military parlance, which is 
the close fight, and the other is the long fight, or the deep 
fight. On the close fight, not only what they're doing with 
Plan Patriota, but they're standing up a special operations 
command, they're improving their ability to operate jointly, 
they're doing a lot better in terms of intelligence sharing. 
And that has allowed them to conduct tactical military 
operations that they were simply incapable of doing 2 years 
ago, both in terms of major combat operations and in terms of 
specialized operations, going after the heads of the 
organizations.
    Ambassador Moreno mentioned combat actions. In 2003, they 
were involved in 2,312 distinct combat actions. That's a 73 
percent increase from 2002.
    Chairman Tom Davis. And that's it. The government's 
initiative, not a reaction, for the most part?
    General Hill. Yes, absolutely. Because if you would look at 
the results of Plan Patriota in the early stages, the first 2 
or 3 or 4 months of it, what we're seeing is a delaying action 
by the FARC in the sense that they are putting out a lot more 
anti-personnel mines, they are trying to fight in smaller 
organizations and they are trying to avoid major combat. That 
was to be expected.
    The problem for them, however, is they will not be able to 
avoid that forever. Because the military is not going to go 
away. They are going to continue to push the fight. That's near 
term.
    Let me talk about one thing just in terms of long term. The 
one thing that separates the U.S. military from most militaries 
in the world, and if you brought in anybody in uniform and 
said, what's the one thing that makes you different or better 
than anybody else, and the answer is, non-commissioned 
officers. Non-commissioned officers and the responsibility that 
we give to non-commissioned officers.
    I had a long discussion about a year and a half ago with 
General Mora, who was then the chairman of their Joint Chiefs, 
and General Ospina, the head of the army. And along this pro-
fessionalization, they wanted to professionalize the Colombian 
NCO corps. So my Command Sergeant Major and several senior NCOs 
from SOUTHCOM went down, began working with the Colombian Army, 
and they have built a non-commissioned officers sergeant major 
academy, started the first class with us teaching it, only 
Army. Second class, mutual teaching, included some Marines. 
Third class includes all services. They did a scrub of their 
senior sergeants major and opted about 30 percent of them to 
retire, and have changed the role of the sergeant major from an 
admin role to a combat role. This will put them, long term, in 
a much better stand.
    Chairman Tom Davis. When they go out on these missions, are 
they accompanied by American advisors?
    General Hill. No, sir. We are prohibited from being any, in 
a direct combat role. We stay on secure bases only in a 
planning assistance role. And in my request for the CAP 
increase to 800, those rules of engagement do not change.
    Chairman Tom Davis. Do you have any idea how many Americans 
are currently held captive by the different groups, contractors 
or----
    General Hill. Sir, there's three.
    Chairman Tom Davis. Just the three?
    General Hill. Yes, sir.
    Chairman Tom Davis. OK. Let me ask Secretary Charles, is it 
still your position that the Colombian air wing program is best 
left where it is? There's a lot of debate about moving the 
program to a law enforcement agency. Have you been able to 
identify and assess any existing problem areas with air wing at 
this point?
    Mr. Charles. I think it belongs where it is. But the second 
part of the question is a very important one. And the answer to 
it is that since the 9 months I've been there, one of the focal 
points has been evaluating the air wing.
    In a nutshell, that air wing has run on a shoestring for a 
long time. And God bless them every one for having been able to 
achieve what they have to date. But the air assets need 
support. And one of my missions, in addition to putting 
performance measures on the contracts and penalties in place 
for contractors and contractor oversight is also to look at the 
capital account of that air wing.
    You're talking about an air wing around which the 
environment has changed, and which is responding very well to 
the changed environment. But nevertheless, in 2002, you had 
about 194 hits on that air wing. The next year, 2003, you had 
about 383 hits on it. Even this year, while there's been a 
reduction in hits, the risk environment is very high. It 
complements exactly what General Hill has been talking about, 
and Ambassador Moreno. As you get closer and closer to the 
burning ember of the FARC, the heat is felt by everybody. And 
it's being felt here.
    That's good, in the sense that we're having an impact. And 
it will be good as we capitalize that account and make sure 
they know how to do their job there and frankly elsewhere in 
the world. That air wing also operates in Pakistan and other 
locations for other purposes. But the short answer is, I'm very 
confident that it belongs there, that it is functionally and 
operationally where it belongs. But it is also true that proper 
management of the air wing is an imperative, and I'm working on 
it.
    Chairman Tom Davis. Do you know how the Colombian 
Government will use the recently acquired DC-3 airplanes for 
opium poppy eradication efforts? These planes, will they make 
it easier to find and eliminate the hard to reach or concealed 
fields of opium poppy?
    Mr. Charles. As you may or may not know, I am a strong 
advocate of that particular decision.
    Chairman Tom Davis. That's why I asked you.
    Mr. Charles. I appreciate it. I know you are, too. I think 
this is again an example of the U.S. Congress working closely 
with the administration. And I think we all know that the 
heroin that shows up on the eastern seaboard, whether it's 
Congressman Cummings' district in Baltimore or whether it's the 
352 deaths outside of Chicago, Speaker Hastert's, or whether 
it's anywhere is chiefly coming on this side of the continent 
from Colombia. That means we have to be very aggressive about 
addressing it.
    What those DC-3s do is they give us the opportunity now to 
get the altitude with manual eradicators and to complement 
other programs. Let me just tell you how important we think, I 
think and I think this entire table thinks heroin is. Frankly, 
the leadership for this also comes as much from the Colombian 
Government as it does from the American government, from the 
U.S. Congress; 1,200 kilograms of heroin seized last year, DEA 
has an entire operation that is affecting it, Operation 
Firewall, significant maritime interdiction, together with 
other efforts. DEA runs the Heroin Task Force in Bogota, 50 DEA 
and CMP members, very aggressive on it. We're targeting heroin 
organizations, which never occurred before.
    In the last 2 years on eradication, in 2002, we talk a lot 
about coca. But let's not forget the significant impact of 
heroin. In 2002, there was a 25 percent reduction, in 2003, 
there was a 10 percent reduction. What do we mean by these 
reductions? Why do they count? Why do they matter? They matter 
because they are deterrents.
    Just like in the cold war, aggressive, continuous, 
consistent, sustained effort ended in victory in every 
reasonable sense of the word. The same thing is what we're 
shooting for here. We're looking for an end game that puts 
deterrents in place, so that if you destroy those crops again 
and again and again, people say, the heck with it, the risks 
are too high, the prosecution too high, police are now in every 
district.
    The short version of this is we're doing good things. We've 
also got a rewards program. Heroin will not go away soon, but 
we are aggressively tackling it, and the DC-3s are a big part 
of it.
    Chairman Tom Davis. Thank you very much. Mr. Cummings.
    Mr. Cummings. Just picking up where you left off, we've 
spent 4 years there. It seems like we're not--well, what's your 
vision?
    Mr. Charles. My vision for Colombia, my vision is really 
the President's vision and this table's vision. I think it's 
shared, if you ask that question of all of us, more or less in 
the same way. I think we are blessed by extraordinary 
leadership right now in Colombia. I don't think that will last 
forever. It never does anywhere in the world. But I think we 
have a moment, a window of opportunity.
    I also think objectively we're at a tipping point. You've 
heard me use that phrase before, but I believe it with all my 
heart. We are at a point where if we do right at each of the 
missions that we have here, if we stay in our lanes and get it 
done right, what we will end up with is a dramatic reduction in 
both heroin and cocaine production. We cannot give up on 
prevention and treatment. They are central to what we're doing. 
But we will make those, as I think Director Walters said, 
manageable.
    As I think Chairman Souder also said and as you've said 
before, you can't do those things unless you get the supply 
down. Because supply of addictive drugs not only destabilizes 
the country, not Colombia in this case and its region, not only 
feeds terrorism, but it creates its own market. Addictive 
substances create their own markets. So if you bring supply 
down, you make manageable the rest of the demand reduction 
side. The vision is that we will never get rid of drugs 
completely in this hemisphere or in the world. Human beings are 
weak and they have faults and they become addicted.
    However, what we can do, we never got rid of crime in Los 
Angeles, never got rid of crime anywhere in the world. What we 
will do is reduce it to a manageable level, where people can 
breathe better and safer and feel both in this country and 
across the hemisphere that they are not being constantly 
victimized by major narcotrafficking, and frankly, also 
narcoterrorism organizations.
    Mr. Cummings. So how you measure your progress?
    Mr. Charles. You always have three or four measures that 
you work with. You've got your inputs, and we're putting them 
in there and you're putting them in there. That matters. You've 
got outputs. We're getting direct outputs. We're seeing that 
hectarage is coming down. We're seeing that prosecutions, 
interdictions, extraditions, all the key things that you're 
looking for that way are going up.
    And then you have outcomes. That's how many kids do we see 
not being victimized ultimately by these drugs. How many 
families are not destroyed in this country by this menace. And 
I think we will see, as Director Walters said, in the next year 
to 2 years, next 12 to 24 months, you should see some impact, 
probably first on purity, because that's where it will 
typically show up first, and then ultimately on price. And 
you'll have to see it metropolitan area by metropolitan area. 
The DEA collects a lot of this data. You've got the Stride data 
and other data is collected metropolitan, you should see Dawn 
data eventually change.
    We have one real, really unusual advantage when we talk 
about the drug war. We have done this before successfully. Some 
things, when SARS came up and other things, these are brand 
new. How to tackle them is not clear. We try against a new 
event.
    But in this case, between 1985 and 1992, cocaine use in 
this country dropped by 78 percent. The number of marijuana 
users, regular 30 day marijuana users, dropped from 21 million 
to 8 million. Heroin purity was back at about 7 to 10 percent. 
It can be done. With this kind of team and your support, it 
will be done.
    Mr. Cummings. I want to just zero in on Colombia. As you've 
heard me say many times, people in my district, deal with 
terrorism on our streets every day. The neighborhood I live in, 
we have terrorists on the corners. And 300 people dying a year, 
and probably about 500 or 600 being saved from death because we 
have one of the best shock trauma units in the world, and a lot 
of that having to do with drugs.
    I guess what I'm trying to figure out is, the people in my 
neighborhood say, we don't have any planes. We don't have any 
boats. And when they see money going into interdiction, the 
question is, well, how does it even get into our neighborhoods. 
And I try to explain it to them. It's hard, though. It's hard. 
And there are a lot of people that almost believe that, not 
almost believe, believe that we are not putting forth our best 
efforts, and that's putting it lightly, in this war on drugs.
    I don't feel that way, because I get a chance to hear all 
this. But I can tell you that this 4 years we've spent--about 
how much money have we spent in Colombia? Do you know?
    Mr. Charles. Well, Plan Colombia is a 5-year plan at about 
$3 billion, give or take.
    Mr. Cummings. $3 billion. And it just seems to me, the 
reason why I asked you about the vision, and the reason why I 
asked you about how do you measure success, is that I think 
that all of us want to make sure that our tax dollars are being 
spent effectively and efficiently. No matter which side of the 
aisle you're on, that's what you want.
    And I guess, I just want to make sure that as we go about 
the business of spending money in Colombia, and I understand 
how, you know, it moved from Colombia, and I'm saying 
everything you just said about eventually it showing up in 
weaker forms on the street and all that, that's very 
significant. But I just want to make sure we're doing something 
that's effective and efficient. That's why I asked you about 
the vision. There are a lot of people who basically wonder, in 
my district, whether we are truly being effective.
    Mr. Charles. I never forget, Mr. Congressman, that you live 
on a block that you've lived on for many, many years.
    Mr. Cummings. Twenty-three years.
    Mr. Charles. Twenty-three years, goes up by 1 year every 
year. And on that same block is a crack house, or was a crack 
house. That story has never left me. I know that we will only 
truly be showing success downstream when we have done all of 
the pieces of the drug war right, and when it shows up your 
street corner.
    That's the end game. I come from a small town, but the 
principle is the same. In order to get there, we have to get 
this stuff out of the system. It takes time. People ask, what 
about price and purity. The answer is, we don't know how much 
excess capacity there is in the system right now. I think 
Director Walters said it well, we are tackling this, we are 
shrinking the overall production environment. That has to go 
hand in glove, I know you were just in that shock trauma unit. 
And we have to go hand in glove to make sure that the treatment 
is effective and real and captures the people that need it.
    The same thing is true with the kids. We've got to reduce 
demand by preventing them from making the worst decision of 
their life. We've got to educate the parents, so that they not 
only know that piece of it's happening, but that the rest of 
this expenditure is very real. It's a weapon of mass 
destruction in its own way. And we've got to keep it out of 
this country. And it will simultaneously stabilize the rest of 
the hemisphere, which allows people to have incomes elsewhere 
outside of drugs.
    But I am very sensitive to the point you make which is that 
it's got to show up here in America in a meaningful way on your 
street corner. And we are all, I think, at this table 
committed, every one of us, to that mission.
    Mr. Cummings. Administrator Tandy, how are we doing with 
regard to justice in Colombia? You and I have had this 
discussion before with regard to, I guess it was Afghanistan, 
about making sure that we don't have, you know, corruption is 
reduced and all that. How are we looking over there in 
Colombia? Because we've had our corruption problems.
    Ms. Tandy. Corruption goes with drug trafficking like 
disease with rats. It doesn't limit itself to Colombia. It is, 
as you know, an issue everywhere there is drug trafficking. 
Obviously there are corruption issues in Colombia which 
President Uribe, and under his leadership has been very 
aggressive in tackling the justice sector reform. Part of Plan 
Colombia also has focused on corruption as part of its training 
of now over 10,000 police, prosecutors and judges and technical 
assistance in that justice sector piece of Colombia.
    The rooting out of corruption is one of the key elements to 
our success. It is something that we are constantly focused on. 
It is a constant issue, and it will remain one for all of us. 
But I am confident that it is a shared concern of the Colombian 
Government and leadership with the United States.
    Mr. Cummings. As far as the money that we spent over there, 
how is that money used to minimize corruption? In what ways? 
Are you following what I'm saying? In other words, I assume 
that you've got to have, you've just got to have good people, 
right? I'm talking about over there, the people that live 
there, and the people that are in the armed services and 
whatever. A lot of people say you've got to pay folks more 
money. I don't know whether that's a part of the formula or 
not. How do you make sure, how do you maximize the probability 
that you're going to have minimal corruption? How do we do that 
as a country, us?
    Ms. Tandy. Within the United States, part of that clearly 
is the selection process of our members in law enforcement and 
all of the other associated members of law enforcement, such as 
the analysts and those people with access to information, 
limiting access.
    Mr. Cummings. I think you may misunderstand my question. 
I'm sorry----
    Ms. Tandy. In Colombia?
    Mr. Cummings. Yes, in Colombia. In other words, how do we--
--
    Ms. Tandy. I understand.
    Mr. Cummings. Yes, here we are, we're spending $3 billion, 
corruption is a major, can be a major problem. You can fight 
all you want, but if you've got people being paid off, you're 
going backward really. And corruption can lead to so much 
damage, it can lead to loss of life, if the wrong information 
gets into the wrong hands.
    So I was just wondering, I just want to make sure that 
we're doing what we can with some of our dollars to make sure 
that we minimize the corruption. I know it's going to be there. 
I'm just wondering what are we doing, if anything.
    Ms. Tandy. I can tell you what we are doing. I would defer 
to Ambassador Moreno for what the country of Colombia is doing 
on a more broad basis. But within our relationship in Colombia, 
Representative, we start with the sensitive investigative units 
where we carefully select the members of those units, we vett 
them, we conduct urinalysis, we do background investigations on 
those people to ensure that we are working shoulder to shoulder 
with people who share our same goals and are not corrupt.
    The payment, the salaries and benefits for those people I 
will leave to Ambassador Moreno to discuss. We have had issues 
and continue to have issues with corruption despite that. Part 
of rooting that kind of corruption out is dependent on the 
collection of intelligence and knowing where our potential 
leaks are. We have had those situations and we have shared 
those issues and that intelligence with select members of the 
Colombian Government. And the Colombian Government has acted 
swiftly to eliminate those individuals who were at issue.
    That is in a nutshell, in a very small sum way how we try 
to prevent it and then how we address it once it surfaces.
    General Hill. Could I add to that, Mr. Cummings?
    Mr. Cummings. Yes.
    General Hill. On the military side, we assisted the 
Colombian military in developing a JAG school, a Judge Advocate 
General, JAG school and the standup of a JAG corps. That helps 
them in terms of operationalizing investigations of possible 
abuse or human rights violations, and also gets at the idea of 
having an operational lawyer on scene with their units. The 
other piece of it is that we only train and work with units 
which we have vetted, both in terms of corruption and in terms 
of human rights allegations, through the U.S. embassy and the 
State Department.
    Mr. Cummings. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Noriega. Mr. Chairman, if I could add one last point.
    Chairman Tom Davis. We have to move to our next panel, but 
that's fine.
    Mr. Noriega. The democracy and human rights and rule of law 
programs amount to about $200 million of that $3.3 billion, 
including at training of prosecutors, support for the Colombian 
judicial system, and teaching a culture of lawfulness, starting 
from the municipal local level all the way up to training of 
prosecutors at the highest level. Especially developing 
security for prosecutors so that they're not afraid of 
enforcing and imposing the rule of law against corruption when 
it's detected.
    Mr. Charles. Could I add one refinement to that, Mr. 
Chairman? Very short.
    Chairman Tom Davis. Yes, you may.
    Mr. Charles. Exactly what Secretary Noriega described in 
many ways is a microcosm, this is a robust program, anti-
corruption is a very big part of it. The numbers of lawyers, 
10,000 lawyers, judges and public defenders have been trained 
collectively between, with us in support of the Colombian 
Government. Training isn't perfect, people get disbarred every 
day.
    But the reality is, it's significant if it has the right 
components. It complements the military, the human rights 
component, the police have vetted units. There is an intense 
effort not only in the near term to look at anti-corruption, 
but the culture of lawfulness is a program that goes into all 
the public schools and talks about the ethics of what a civil 
government is all about. Frankly, we need more of it here, too.
    But the reality is, that is a long term strategy and it's 
complemented by vetted units, and that's all.
    Chairman Tom Davis. Thank you very much. Ambassador Moreno.
    Ambassador Moreno. Very quickly, for Congressman Cummings, 
basically, aside from all the vetting, both in human rights and 
for purposes of law enforcement and specialized units in the 
attorney general's office in Colombia. The whole issue of 
corruption the President of Colombia takes very seriously. 
There is a task force that is directed by the vice president of 
Colombia which basically goes to look at all levels of 
government, at the local level, the state level and the 
national level with 800 numbers, with ways for people to make 
demands as to very specific things in terms of contracting, 
having things electronic government, e-government, so that 
people can talk about bids, if there's a problem with a bid 
they can immediately address this issue.
    So there's a whole host of things that are built around a 
program of anti-corruption at the level of the vice president 
of Colombia. Is there corruption? Unfortunately, yes. Director 
Tandy said clearly there is, when it's associated with drug 
trafficking and drugs. And that's why for Colombia, it is not a 
choice if we destroy enough drugs, for us it's an obligation to 
rid our society, to rid a generation that has been full of 
these problems for years, to have our children live in a 
country that will be much better as a result.
    Finally, Mr. Chairman, I just wanted to ask you if I could 
answer to both what Congressman Duncan and Congressman 
Kucinich, who I thought was going to be here, but I see that he 
didn't come back to answer some of the questions and to put in 
written testimony if you don't mind.
    Chairman Tom Davis. That would be fine, without objection.
    Thank you all very much. It's been very, very helpful to 
us. We're going to take a brief recess before the start of our 
third panel. We're going to be setting up a screen so that one 
of our witnesses is shielded from the cameras. As the media 
knows, this gentleman can't be filmed or photographed. We're in 
recess.
    [Recess.]
    Chairman Tom Davis. We want to welcome our third panel, Mr. 
Carlos Plotter, and for him, translating we have Ms. Patricia 
Cepeda. I'm going to have to swear you both in. Mr. Plotter is 
a former member of the FARC. He'll discuss the time he spent 
with the FARC, why he chose to voluntarily turn himself in to 
the Colombian national police after serving 10 years as a 
guerrilla. His testimony will provide a valuable inside 
guerrilla perspective on the peace process between the 
Colombian Government and the guerrilla groups in an effort to 
restore authority and control of the Colombian Government in 
areas of the country where the government control was lacking.
    We are just very appreciative of your taking the time to be 
here today and sorry we've delayed you. You can stay seated, 
would you raise your right hand?
    [Witnesses sworn.]
    Chairman Tom Davis. Let the record show he said I do. 
Muchas gracias. You may begin, thank you.
    We'll allow Mr. Plotter to speak and then you can translate 
for him. Thank you very much.

   STATEMENTS OF CARLOS PLOTTER, FORMER POLITICAL COMMANDER, 
    REVOLUTIONARY ARMED FORCES OF COLOMBIA (FARC); MARC W. 
  CHERNICK, PROFESSOR, DEPARTMENT OF GOVERNMENT AND SCHOOL OF 
   FOREIGN SERVICE, GEORGETOWN UNIVERSITY; AND ADAM ISACSON, 
     DIRECTOR OF PROGRAMS, CENTER FOR INTERNATIONAL POLICY

    Mr. Plotter. [All remarks of Mr. Plotter are given in 
native tongue through an interpreter.]
    Ms. Cepeda. First of all, I want to express my thanks to 
you for your invitation and for hosting me in this honorable 
room.
    As you mentioned before, I spent 10 long years with the 
FARC.
    My process of re-entering civil society was part of a very 
important stage, both in my country, in Latin America and 
internationally.
    I am a man from the provinces, and I was raised with very 
strong Catholic convictions.
    In that same capacity for analysis, in that same feeling 
that I was raised with in the Catholic church, led to a 
deepening of my social responsibility feelings.
    At age 16, I entered the National University of Colombia to 
study engineering. And then I entered a period of exposure, not 
just to the academic world of the exact sciences, but also to a 
deepening of my feelings of social responsibility by doing 
community service in the popular neighborhoods of Bogota.
    That interaction I had with people from needy communities 
deepened in me the feeling that I had to put into practice what 
I believed and thought in feeling.
    This was the period when the Berlin wall was falling and 
when there was the crisis of socialism, and this combined with 
the reading of the theories of Francis Fukuyama, the End of 
History, led in me a desire to be more conscious of putting 
into practice what I thought and felt.
    So I joined the Communist Youth in Colombia.
    In that international context, there were also some very 
local political contexts in Colombia which had to do with the 
ideological crisis of the left.
    What was happening in Colombia was that there was starting 
to be process of demobilization of armed groups, such as the M-
19, parts of the ELN and the EPL. But what was becoming obvious 
was that there was lots of aggression against parties like the 
UP and the Communist party that were trying to participate in 
the political processes.
    Among, in the middle of all that context, I became aware 
that I sort of needed to put into practice what I believed, the 
love of the people around me and the care for those that needed 
it the most. So I put into practice things I had grown up with 
in Catholicism.
    I was looking for an organization that wanted to build a 
new society toward socialism, and I wanted also an organization 
that would protect the work with the gun, so I joined the FARC.
    In 1993, I started looking for a way. And this way was 
unfortunately the one that was most painful for my country. I 
participated in guerrilla activities in various spaces of our 
national geography.
    In those 10 years that I spent with them, I saw how the 
FARC went from being a political-military organization with a 
clear ideological north to--it became an armed, just an armed 
group isolated from a political aim or context, purely 
militaristic and with a commercial component.
    The lure of easy money, which came by the cultivation, the 
processing and the sale of narcotics, made the organization 
lose its political route, and went from being an organization 
that we thought was a mass organization, a revolutionary 
people's organization.
    Colombia lacked at that moment the guarantees for 
development of social and economic conditions that we all 
wished for.
    But the fact is that we have a new reality in Colombia. 
There are conditions now that allow for those of us who might 
think differently to set out our ideas in a democratic 
framework.
    There's now an opportunity for the word to win the war over 
the gun.
    I think democratic spaces are now open for us to oppose a 
guerrilla force that is fueled by drug money and will not be 
able to conquer the hearts and minds of the people.
    We Colombians are now trying to have an opportunity to 
resolve our differences through discussion.
    It is a democratic moment where even though some people say 
that the Uribe government is a government of the right, but 
this is when the opposing forces of the left have achieved a 
democratic security to participate in society.
    I left the FARC because, simply, theory did not meet up 
with practice.
    The moral imperative of a revolutionary fighter was simply 
substituted for the economic imperative.
    There was a qualitative sea change. There was no work done 
that would add anything to the local populations. The actions 
that we were taking simply lessened the local populations.
    We are living a historical moment now where we have an 
opportunity to lay aside the guns and have an opportunity for 
discussion and negotiation in a democratic framework for us to 
enter civil society.
    I believe that we now have a possibility to win the war of 
ideas with political and social investment and not try to win 
the war in the military terrain.
    In this last phase of the struggle, I believe it's now time 
to turn to see how Plan Colombia has affected this last phase.
    I repeat, I do not believe in an armed resolution to the 
conflict. But I do believe that the military help that has come 
through through Plan Colombia has given the army new 
initiative, and it has also given it increased operational 
capacity in the terrains that are dominated militarily by the 
guerrillas.
    The military component, especially in the area of aerial 
interdiction, has helped in both stopping the influx of 
dollars, the outflows of drugs and components and armaments for 
the guerrillas.
    The guerrilla needs the commerce of narcotrafficking. And 
narcotrafficking is now the fuel that motors the barbarism that 
is taking place in our country.
    But I do believe a social component is important for Plan 
Colombia, one that has the guarantees that crop substitution, 
that there will be a market for the crops that are substituted, 
so there is a guarantee of livelihood for our peasants.
    The war in our country is essentially a war between two 
factions of poor people. Because there are a lack of guarantees 
for the crops that our agricultural workers raise, they are 
forced in fact to raise coca. If there was solid investment, 
planning and some guarantee that the products they raise have 
equal access and participation in markets, this will go a long 
way toward closing the spaces for coca growing.
    What we are looking for is some justice and equity in the 
negotiations for market processes. But in our economic 
relations, there's some kind of interest in restricting the 
protectionism in North America for our products and some kind 
of equity of access to their markets that are demanding of us 
that we open our borders.
    In a world that's every day more interdependent, we now 
believe that the democratic processes are the guarantees that 
we will be part of some important decisionmaking that takes 
place internationally, and that there will be equality, 
fraternity and solidarity for us also.
    Thank you very much.
    [The prepared statement of Mr. Plotter follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.130
    
    [GRAPHIC] [TIFF OMITTED] T6408.131
    
    [GRAPHIC] [TIFF OMITTED] T6408.132
    
    Chairman Tom Davis. Thank you very much as well. We also 
have Dr. Mark Chernick and Mr. Adam Isacson, well credentialed 
in this area. Will you raise your right hand with me?
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    Let me note for the record your entire testimony is in the 
record. We're expecting votes in about 10 minutes, so if you 
can get through, we'll try to get to some questions. Once the 
bells go off, we'll have a couple of minutes, but I want to get 
you each going. I'll start with you, Dr. Chernick and then to 
Mr. Isacson.
    Mr. Chernick. Thank you, Mr. Chairman. And I thank you very 
much for inviting me to participate in this important meeting.
    I just wanted to briefly begin by discussing how we got 
here, because there's not a lot of clarity about the origins of 
Plan Colombia. Because Plan Colombia in its initial formulation 
was a $7.5 billion Colombian strategy developed by President 
Andres Pastrana 5 years ago, with the assistance and the urging 
of the Clinton administration to address Colombia's multiple 
crises. It was to be funded by the United States, the European 
Union, multi-lateral development banks, and the Colombian 
Government.
    President Pastrana, when he took office in 1998, originally 
spoke of a Marshall Plan for coca-growing regions. He thought 
that a negotiated peace with the FARC would enable the state to 
cerate a legitimate presence in areas largely abandoned by the 
state, and would allow the state to promote alternative 
development away from dependence on drug related crops. For 
Pastrana, the peace process was viewed as an effective anti-
narcotics strategy. To this end, he hoped to enlist the support 
of the United States.
    This original formulation of Plan Colombia was received 
with great skepticism in Washington. By the time Congress 
approved the $1.3 billion supplemental appropriation in June 
2000, the formula had basically been turned on its head. For 
the United States, peacemaking and state building was not seen 
as viable anti-narcotic strategy. Rather, anti-narcotics was 
viewed as the basis for pacification and peace.
    As such, the approval of the original assistance strategy 
to Plan Colombia needs to be viewed from two perspectives: the 
anti-narcotics strategy, and second, its impact on peace. And I 
want to discuss both of these.
    From the anti-narcotics perspective, Plan Colombia 
represents the continuation of a succession of strategies 
dating back to the mid-1980's of attacking production at its 
source. This can be seen in the initial operations in the 
Bolivian coca fields under Operation Blast Furnace in 1986, in 
the efforts to destroy the Colombian cartels, what was known as 
the kingpin strategy in the late 1980's and early 1990's, and 
the airbridge strategy that effectively cutoff the Peruvian and 
Bolivian coca fields from the producers in Colombia.
    In each of these cases, the immediate objectives were 
achieved. The kingpin strategy effectively dismantled the 
Medillin and Cali cartels. The airbridge strategy led to 
declines of up to 85 percent in coca production in Peru and 
Bolivia. However, in every case, new patterns of trafficking 
emerged. Instead of large cartels, small cartels appeared in 
Colombia, as well as new large scale drug syndicates in Mexico. 
And the great reduction in coca production in Bolivia and Peru 
led to massive increase in coca cultivation in Colombia.
    What has happened with Plan Colombia? Massive aerial 
fumigation by the United States and Colombian Governments 
finally has led to a modest decrease in overall production. But 
as would be expected, the available evidence is that the market 
has adjusted. New producers have entered the market and new 
techniques have been forged, including agrinomical advances 
that allow coca production at lower elevations, effectively 
opening up the entire Amazon Basin and not just the foothills 
of the Andes. The available evidence is that production is 
moving into micro-plots scattered throughout Colombia and into 
newer areas that do not have a historical relationship with 
coca production.
    But the impact of Plan Colombia was perhaps even more 
devastating for the peace process. The FARC viewed the 
development of Plan Colombia as an effort by the Colombian and 
U.S. Governments to undermine the peace process and to promote 
a military solution. One can be skeptical about the sincerity 
of the FARC in engaging in talks. There were clearly divisions 
among their senior leadership, and they too increased their 
military actions during the period of negotiations.
    However, the United States basically sent a signal that it 
was not interested in the peace strategy. In so doing, it also 
alienated other members of the international community, 
particularly the EU, which refused to endorse or support Plan 
Colombia.
    After September 11th and beginning in mid-2002, Congress 
lifted the previous restrictions that required all military aid 
and assistance to be dedicated to anti-narcotics. The action 
has brought the United States more directly into Colombia's 
internal armed conflict, something that it had previously 
attempted to avoid. The new posture of the United States 
converges well with the policies of the Uribe administration, 
elected in 2002 on a hard line platform following the breakdown 
of the peace talks. Current policy is to confront militarily 
the FARC and to increase the military and police presence 
throughout the national territory.
    The Uribe government has also initiated negotiations with 
the right wing paramilitaries, the AUC. This is a new strategy. 
It is one I support. The AUC has been the largest violator of 
human rights in the country and the most destabilizing element 
in the conflict. However, negotiations will be difficult. The 
AUC is extensively involved in drug trafficking, it is 
fragmented, it is undergoing a leadership change following the 
disappearance of its nominal leader, Carlos Castano.
    Successful negotiations with the AUC will not lead to 
peace. The conflict with the FARC will continue. However, a 
durable accord that removed the AUC from the conflict would 
clarify the nature of the war between the state and the FARC. 
Eventually, removing the AUC from the conflict might clear the 
way for a negotiated settlement with the FARC. However, this 
will not happen in the short term.
    To conclude, the war in Colombia has endured in one form or 
another for 58 years. The war antedates the drug boom. It is 
deeply rooted. For 20 years, the situation can be characterized 
as an escalating military stalemate. Both sides, government and 
guerrillas, have escalated their capacities and neither side is 
likely to defeat the other.
    Under these conditions, I am convinced that there is no 
military solution to the conflict. This dose not mean that the 
Colombian Government does not have the legitimate right to 
defend itself. Yet peace will take more than battling the FARC 
or pushing coca cultivation into different corners of the 
country. The United States can potentially play a major role in 
ending this conflict. A stable Colombia is in the interest of 
the United States. But it will require a rethinking and 
reprioritizing of the component parts of the U.S. assistance 
program to Plan Colombia, balancing needs of development 
assistance, human rights, humanitarian assistance, judicial 
reform and peace promotion with the more visible policies of 
counter-terrorism and anti-narcotics.
    For starters, one might want to look at the original $7.5 
billion Plan Colombia, the original Plan Colombia, developed by 
the Colombian Government in 1999. It presents a more balanced 
approach.
    Again, let me thank the committee for its time, and I'll be 
happy to answer any of your questions.
    [The prepared statement of Mr. Chernick follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.133
    
    [GRAPHIC] [TIFF OMITTED] T6408.134
    
    [GRAPHIC] [TIFF OMITTED] T6408.135
    
    [GRAPHIC] [TIFF OMITTED] T6408.136
    
    Chairman Tom Davis. Thank you very much.
    Mr. Isacson.
    Mr. Isacson. Thank you, Mr. Chairman. I want to 
congratulate the committee for holding a hearing on Plan 
Colombia, it is absolutely crucial that Congress closely 
oversee the U.S. strategy in Colombia. And I thank you for 
staying this late to hear my testimony.
    We've heard a lot of glowing statements today about Plan 
Colombia, including Colombian Government statistics showing 
less violence and less coca. I don't have alternative 
statistics, how can I cover the whole country? But in the last 
year, I have interviewed dozens of local officials, religious 
and community leaders in Colombia, and I've heard a lot of 
skepticism. People on the ground have seen little change in 
violence or drug crop cultivation.
    A prime example is Putumayo. Putumayo is a province in 
southern Colombia about the size of Maryland. Putumayo was the 
main focus of Plan Colombia when it began in 2000. I visited 
there in March 2001 and I was there again 8 weeks ago, in 
April. In the 3 years in between, the United States has paid 
for the fumigation of at least 100,000 hectares of Putumayo, 
and we funded a dramatic expansion in Colombian military and 
police capabilities there. Conservatively estimating, we spent 
$1 billion in and around Putumayo in 4 years.
    I did see less coca in Putumayo than there was 3 years ago. 
But even after wave upon wave of fumigation, it's still very 
easy to find coca there. I took this picture within a quarter 
mile of Putumayo's only paved road. It shows a pretty 
commonsite, a small plot of new coca bushes, about knee high, 
growing in a field that had been fumigated some months before. 
Replanting in Putumayo is common, and several people I 
interviewed said that seeds and nurseries are very booming 
industries right now.
    Three years ago, Putumayo was full of large plots of coca. 
They would go all the way to the horizon, it seemed. Nobody 
does that any more, because it's too much of a target for the 
spray planes. But there's still a lot of coca, and today the 
plots are different. They're smaller, they're more widely 
scattered.
    But even more disturbingly, everybody I asked there, and I 
asked several times, said that the price of coca leaves and 
coca paste has not changed since before Plan Colombia began. A 
kilo of coca paste still sells for about $800 in Putumayo, the 
same as it did before the year 2000. This would seem to violate 
the law of supply and demand. If fumigation were actually 
making coca scarcer, the price should rise. But that has not 
happened. There is no tipping point yet.
    A gram of cocaine sold on our streets goes for about $25 to 
$150, depending on the city. That was as of January of this 
year. That's the same as the studies ONDCP was carrying out in 
1995, and they say there's been no change in purity. Supply is 
meeting demand as well as it ever has. This means that the 
traffickers are adapting yet again to increased fumigation.
    To counter this, we can't respond just by fumigating even 
more. If you want to reduce drug supplies, we have to start 
thinking about real governance. There's no substitute. 
Eventually, Colombian Government civilians are going to have to 
be able to look growers in the eye in places like Putumayo and 
tell them, what you're doing is illegal, but we're committed to 
providing you the basic conditions you need to make a legal 
living.
    So far we're nowhere near there. The United States has 
given Colombia $3.2 billion since 2000, but of that, only 2 
percent has gone to civilian governance or economic aid, even 
though 8 out of 10 rural Colombians live below the poverty 
line, creating a very strong incentive to grow coca. The rest 
of our aid is going to guns, helicopters and spray planes. Even 
with all this military aid, including the creation of all these 
new vetted units, Putumayo is still a very dangerous place.
    In April, I had to take a canoe across the Guamues River 
where the main road had a bridge going across it, but there was 
no bridge. Late last year, the FARC was perfectly able, at 
complete liberty to bomb out this and several other bridges 
along the main road. This was part of a larger wave of violence 
in Putumayo at the end of last year. The guerrillas also 
launched dozens of attacks on Putumayo's oil infrastructure.
    Meanwhile, the paramilitaries are heavily present still in 
the towns of Putumayo. Bodies show up on the streets and 
roadsides nearly every day. There's no peace talk, cease-fire 
in Putumayo. The paramilitary attacks on civilians haven't let 
up at all. The paramilitaries are also very easy to find. I 
came across a dozen of them in full uniform on the outskirts of 
one of the main towns.
    Meanwhile, everyone there takes for granted that the 
military and the paramilitaries help each other and don't fight 
each other. When I asked local officials, religious leaders 
whether military-paramilitary collaboration is still a problem, 
they looked at me like I was an idiot. They said, of course it 
is.
    Violence and coca persist in Putumayo, despite all of our 
investment there. We have to learn from this as we hear about 
ambitious new plans to aid military offensives like the Plan 
Patriota that was discussed in the last panel. The last several 
years in Colombia are full of examples of massive military 
offensives, there have been many, with no long term results.
    This is a familiar pattern. Here's what happens. Thousands 
of troops rush into a guerrilla stronghold, and as we heard in 
the last panel, the guerrillas don't fight back much, they melt 
away into the jungle. Maybe there's an occasional encounter or 
ambush, but nothing much more. The soldiers then stay in the 
zone for a few weeks, even a few months, but they can't stay 
forever. When they eventually have to go back to their bases, 
we find that nobody made any effort while they were there to 
bring the rest of the government into the zone. There are still 
no judges, cops, teachers, doctors, road builders or any of the 
other civilian government services that every society and 
economy needs in order to function.
    When the soldiers leave, armed groups simply come back and 
fill the vacuum. The former FARC demilitarized zone, much of 
it, I'm afraid, is still an example of this. There was a huge 
military offensive there in 2002, but today the rural part of 
the demilitarized zone is again dominated by the FARC. Whether 
you call it Plan Patriota or Plan Colombia II, if we're going 
to help Colombia govern its territory, we have to remember that 
military power is only a small part of doing that. A government 
gains authority by providing its citizens the basic conditions 
they need to make a living in peace. Both of our governments 
are going to have to spend much more than to insert civilian 
government institutions, not just the military, but the rest 
into Colombia's owned governed areas. We can pay of a lot of 
this by diverting money away from our fumigation program and 
our huge military aid program.
    In conclusion, this sort of non-military aid doesn't just 
neglect security needs. In fact, development aid is security 
aid, because Colombia won't have security without it. Thank 
you, and I look forward to your questions.
    [The prepared statement of Mr. Isacson follows:]

    [GRAPHIC] [TIFF OMITTED] T6408.137
    
    [GRAPHIC] [TIFF OMITTED] T6408.138
    
    [GRAPHIC] [TIFF OMITTED] T6408.139
    
    [GRAPHIC] [TIFF OMITTED] T6408.140
    
    Chairman Tom Davis. Thank you all very much. I've been to 
Putumayo. What alternative crop would you suggest for these 
farmers? That's the difficulty.
    Mr. Isacson. Well, there are crops and there are products 
that will make money. Juice concentrates are showing some 
promise.
    Chairman Tom Davis. They'll make money, but it's nothing 
near what they're getting.
    Mr. Isacson. Actually, it wouldn't be that far off. A coca 
grower who has three hectares, after they make their payment to 
the paramilitaries and to the guerrillas in the area, after 
they pay for all their inputs, two hectares will probably give 
you a net of about $300 or $400 a month, which, Colombia's 
minimum wage is only $110. But you could probably make that 
with hearts of palm or something like that.
    Chairman Tom Davis. They could use some of our ag programs 
where they pay you not to grow, you'd probably do better down 
there.
    Mr. Plotter, let me ask a couple of questions. What was it 
like on a day to day basis being a guerrilla? What was the 
quality of life like? Did you have running water? Were you 
living out there in the jungle in tents? What kind of food did 
you get? What was the quality of life compared to going into 
the city and living a normal civilian life?
    Mr. Plotter. [All remarks of Mr. Plotter are given in 
native tongue through an interpreter.]
    Ms. Cepeda. It was a drastic and a radical change. I grew 
up in the provinces, but I always, up to the moment I went into 
the guerrillas, lived in urban centers.
    In my 10 years as a guerrilla, I was always in the 
geographical regions of either the big mountain range or the 
jungle.
    The conditions maybe satisfied the military struggle, but 
they didn't satisfy human needs.
    We never get used to war. We just become resigned to living 
in those conditions.
    Our basic sanitary services, for example, are what nature 
provides.
    When the FARC started getting money and when they started 
getting more comfortable in the demilitarized zone, those of us 
who were outside the zone wanted to copy those bourgeois kinds 
of accommodations.
    What happened was the sacrifice and the personal giving 
oneself up to the revolutionary or guerrilla----
    [Power outage occurred 6:15 p.m. to 6:25 p.m.]
    [Note.--A copy of the transcript held during the power 
outage follows:]

[GRAPHIC] [TIFF OMITTED] T6408.161

[GRAPHIC] [TIFF OMITTED] T6408.162

[GRAPHIC] [TIFF OMITTED] T6408.163

[GRAPHIC] [TIFF OMITTED] T6408.164

    Ms. Watson. I mean, do you lose sight of what your original 
goal was?
    Mr. Plotter. [All remarks of Mr. Plotter are given in 
native tongue through an interpreter.]
    Ms. Cepeda. There needs to be a distinction between what 
was the central objective, which was the taking of power and 
the methods and scenarios where these objectives are trying to 
be developed and reached.
    The taking, a Colombian expression famously said, do you 
want to take power, for what. And my question is, do they want 
to take power and have power over the ruins of a country?
    But we now have the chance to nullify the power of the gun, 
because we have democratic mechanisms and democratic scenarios 
where there can be divergence of opinion, divergence of ideas 
and there can also be dissent. So we do not have to take 
recourse in a fratricidal war.
    And this war among brothers has its fuel in drugs and the 
drug business.
    Ms. Watson. Just let me say this, and then we'll all have 
to go. Was it the narcotics that fueled the revolution in terms 
of financially, or could there be another kind of way of 
keeping a stable democratic government other than the proceeds 
from narcotics? And then that goes over to this group, however, 
we're not going to have time.
    Mr. Plotter. [All remarks of Mr. Plotter are given in 
native tongue through an interpreter.]
    Ms. Cepeda. No, it was not always like this. Before drugs 
fueled the armed struggle, there was from the part of the 
guerrilla a really partisan, committed ideology based on the 
population and based on looking, and the search for a better 
society.
    The qualitative jump in the characteristics of the FARC is 
that now they have a much better, much improved arsenal as a 
product of drug profits.
    Ms. Watson. Muchas gracias.
    Mr. Cummings. Dr. Chernick and Mr. Isacson, how could we 
better use our money? You heard what I said a little earlier. 
We spend a lot of money, and everybody here, all of us, we want 
to be effective and efficient. How do you see, what do you see 
as a better way of using our money, assuming we want to use it 
to reduce drug production in Colombia? How would you approach 
it? Apparently you don't feel too good about the way we're 
doing it right now.
    Mr. Chernick. My feeling, and I think most people who have 
looked at the drug war, as they call it, over the last 15 to 20 
years, is that the current strategy is not successful. We 
continue to move it around and we show no results, zero 
results. Something else should be done.
    You can change the circumstances in a particular country. 
We've done that in Bolivia and Peru, and we are changing things 
in Colombia, change, not lowering, changing politically, 
changing the war, changing the political actors, changing the 
social movements. But what we're not doing is stopping the flow 
of drugs. So I think something else needs to be thought on the 
drug side, and it probably means placing a lot more baskets on 
the demand side.
    Even then, you must remember, the United States is not the 
only country fueling the demand for drugs. Brazil is now the 
second largest consumer of cocaine, and Europe is close behind. 
So that there is a growing global demand. And that's going to 
be met. That's simply economics. That's supply and demand.
    And the drug war shows, you can send all the planes and 
helicopters you want, and you will simply push it around, you 
will not alter the laws of economics, of supply and demand. If 
you understand that, you need to think of a new way to approach 
the drug problem.
    Second, a separate problem is the issue of the war in 
Colombia, and what is the impact of a war on drugs and the war 
in Colombia. My contention is that the U.S. drug war now 
collapsed into a war on terror is simply fueling the war. The 
United States should be on the side of the democratic side of 
democratic security, of promoting development, of dealing with 
humanitarian crises and dealing with human rights. And it 
should be putting its money and its diplomatic and its 
political weight on that side. It could go a long way.
    But one should not collapse the drug war and Colombia's 
internal war. One should deal with Colombia's problems and one 
should try to address the issues of Colombia's armed conflict 
through some sort of negotiated settlement.
    Mr. Isacson. Very quickly, right now the United States 
gives Colombia about $750 million a year. I don't think any of 
us dispute that amount. I think we all endorse that. That is a 
good investment if it's done right. Our problem is that is 80 
percent going to the security forces. And it's not looking at 
the reasons why people grow drugs, why people have no choice 
but to join the guerrillas and paramilitaries if they happen to 
live in the rural part of Colombia, which is a vast area.
    It's hard to even imagine from here, but these are zones 
where most people have come within the last 30 years, cut down 
some jungle and tried to make a living and their government 
never followed them there. If somebody tries to take your land, 
you can't go to a judge and get it adjudicated. You can't get a 
land title, which means you can't get credit. There's no road 
for you to take your legal crops to market. And there's no cops 
to settle any dispute. Your kids can't go to school so they end 
up unemployed and probably joining one of the armed groups.
    There's a whole lot of other needs that our aid really 
isn't meeting. But we certainly have no problem with the amount 
or the level of commitment.
    Mr. Cummings. So in other words, if the economic and social 
problems aren't addressed, you're going to continue to have 
these problems and we're going to continue to pour money into 
Colombia, and it's just going to be a bottomless pit.
    Mr. Chernick. Mr. Plotter mentioned that the FARC are able 
to, are very freely able to recruit like crazy in the areas 
under their control. Why? Because there's a lot of people there 
with nothing to do. And as long as those social conditions are 
there, you've got this reserve army of drug growers and future 
guerrillas and para-militaries. That's absolutely true.
    Mr. Cummings. Thank you very much.
    Chairman Tom Davis. Let me just ask, the Homestead Act, 
President Lincoln did so much to develop the west here and the 
gold rush and everything like that. Would something like that 
be conceivable for Colombia?
    Mr. Chernick. I think so. Actually, a lot of the places 
we're talking about, like Putumayo, some of the people that 
came in the 1960's and 1970's came at the behest of the 
Colombian Government as what they called colonization plans. 
But the Colombian Government didn't followup.
    Chairman Tom Davis. They didn't have Wyatt Earp following 
it up.
    Mr. Chernick. That's exactly right.
    Chairman Tom Davis. No cavalry and everything else.
    Mr. Chernick. No Pony Express, either. Nothing.
    Mr. Isacson. Could I just add something? There is a problem 
here. It is true that Colombia has this really hundreds of 
years process of colonization of what they call the 
agricultural frontier. It's like the Homesteading Act. The 
problem is with most of the areas of homesteading, it's not 
only that they don't have title to the land and therefore the 
state doesn't have infrastructure, no roads to market and all 
that, but most of this area is not suitable for agricultural 
production. Most of this is very fragile rain forest that does 
not lend itself to agricultural production.
    You asked, what else can you grow? In most places, nothing. 
And that is, one really needs to think about it. I in fact 
worked with the World Bank on a project of creating alternative 
poles to development. Because it's not only alternatives crops, 
it's in fact alternative poles of development that would draw 
populations out of the forest. Because one can't think of 
simply continuing the colonization zones. They've thought about 
that in the past. Half the country is basically unpopulated.
    But it's not suitable for habitation. And one needs to 
think of a different relationship of the population in that 
lands. The alternative development question hasn't even begun 
to address that issue.
    Mr. Chernick. That's true.
    Chairman Tom Davis. Thank you. Well, our votes are on, and 
I don't want to hold you while we go over and do them, but it's 
been very helpful. We appreciate all of your perspectives, as 
we put this in the record and as we move forward.
    So, Mr. Isacson and Dr. Chernick and Mr. Plotter, and also 
for you, Ms. Cepeda, thank you very much for being with us 
today. This has been very, very helpful to us. The hearing is 
adjourned.
    [Whereupon, at 6:40 p.m., the committee was adjourned.]
    [The prepared statement of Hon. John L. Mica and additional 
information submitted for the hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T6408.141

[GRAPHIC] [TIFF OMITTED] T6408.142

[GRAPHIC] [TIFF OMITTED] T6408.143

[GRAPHIC] [TIFF OMITTED] T6408.144

[GRAPHIC] [TIFF OMITTED] T6408.145

[GRAPHIC] [TIFF OMITTED] T6408.146

[GRAPHIC] [TIFF OMITTED] T6408.147

[GRAPHIC] [TIFF OMITTED] T6408.148

[GRAPHIC] [TIFF OMITTED] T6408.149

[GRAPHIC] [TIFF OMITTED] T6408.150

[GRAPHIC] [TIFF OMITTED] T6408.151

[GRAPHIC] [TIFF OMITTED] T6408.152

[GRAPHIC] [TIFF OMITTED] T6408.153

[GRAPHIC] [TIFF OMITTED] T6408.154

[GRAPHIC] [TIFF OMITTED] T6408.007

[GRAPHIC] [TIFF OMITTED] T6408.008

[GRAPHIC] [TIFF OMITTED] T6408.009

[GRAPHIC] [TIFF OMITTED] T6408.010

[GRAPHIC] [TIFF OMITTED] T6408.011

[GRAPHIC] [TIFF OMITTED] T6408.012

[GRAPHIC] [TIFF OMITTED] T6408.013

[GRAPHIC] [TIFF OMITTED] T6408.014

[GRAPHIC] [TIFF OMITTED] T6408.015

[GRAPHIC] [TIFF OMITTED] T6408.016

[GRAPHIC] [TIFF OMITTED] T6408.017

[GRAPHIC] [TIFF OMITTED] T6408.018

[GRAPHIC] [TIFF OMITTED] T6408.019

[GRAPHIC] [TIFF OMITTED] T6408.020

[GRAPHIC] [TIFF OMITTED] T6408.021

                                 <all>

</pre></body></html>
